No. 19-____
IN THE

Supreme Court of the United States
————
BEN BRANCH, WM. CURTIS CONNER,
DEBORAH CURRAN, AND ANDRE MELCUK,
Petitioners,
v.
DEPARTMENT OF LABOR RELATIONS,
COMMONWEALTH EMPLOYMENT RELATIONS BOARD AND
MASSACHUSETTS SOCIETY OF PROFESSORS/MTA/NEA,
HANOVER TEACHERS ASSOCIATION/MTA/NEA,
PROFESSIONAL STAFF UNION/MTA/NEA,
Respondents.
————
On Petition for Writ of Certiorari to the
Massachusetts Supreme Judicial Court
————
PETITION FOR WRIT OF CERTIORARI
————
BRUCE N. CAMERON
Counsel of Record
AARON SOLEM
FRANK GARRISON
NATIONAL RIGHT TO WORK LEGAL
DEFENSE FOUNDATION, INC
8001 Braddock Road
Suite 600
Springfield, VA 22160
(703) 321-8510
bnc@nrtw.org
Counsel for Petitioners
July 8, 2019
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTIONS PRESENTED
Government-designated unions representing everyone in a bargaining unit negotiate the wages and
working conditions of Massachusetts public employees.
Taxpayers play no part in these negotiations. Here,
the union also excludes from negotiations all represented employees who do not financially support its
partisan political activities.
1. When a public employee union uses its governmentgranted authority as employees’ exclusive bargaining
representative to compel employees to choose between
a voice and a vote in their working conditions and their
political autonomy, is that choice so attributable to the
state as to trigger First Amendment protection?
2. Under the First and Fourteenth Amendments to
the United States Constitution, may a state allow an
exclusive bargaining representative to muzzle the
speech of employees by denying them a voice and a vote
in their working conditions if they choose to refrain
from financially supporting partisan union politics?

(i)

ii
PARTIES TO THE PROCEEDINGS
AND RULE 29.6 STATEMENT
Petitioners, Charging Parties-Appellants in the courts
below, are Ben Branch, Wm. Curtis Conner, Deborah
Curran, and Andre Melcuk.
Respondents in the courts below were
Massachusetts Department of Labor Relations,
Commonwealth Employment Relations Board,
Massachusetts Society of Professors/MTA/NEA,
Hanover Teachers Association/MTA/NEA, and
Professional Staff Union/ MTA/NEA.

the
the
the
the
the

Because no Petitioner is a corporation, a corporate
disclosure statement is not required under Supreme
Court Rule 29.6.
There are no other cases directly related to this case.

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ...............................

i

PARTIES TO THE PROCEEDINGS AND
RULE 29.6 STATEMENT ...............................

ii

TABLE OF AUTHORITIES ................................

vi

OPINIONS BELOW ............................................

1

JURISDICTION ..................................................

1

PROVISIONS INVOLVED .................................

1

STATEMENT OF THE CASE ............................

1

REASONS FOR GRANTING THE PETITION..

4

I. THE CIRCUIT SPLIT ON STATE
ACTION MAKES THIS AN IDEAL VEHICLE TO RESOLVE WHETHER AN
INVOLUNTARY EXCLUSIVE BARGAINING REPRESENTATIVE MAY
COMPEL NONMEMBERS TO CHOOSE
BETWEEN THEIR POLITICAL AUTONOMY AND A VOICE AND A VOTE IN
THEIR WORKING CONDITIONS ..........

6

A. State action is present because this
Court found state action in Knight,
and there is no reason to distinguish
between that case and this case on
that point .............................................

8

B. State action is present because publicsector union exclusive representatives
perform a traditional state function
by determining terms and conditions
of governmental employment..............

9

(iii)

iv
TABLE OF CONTENTS—Continued
Page
C. State action is present because of
pervasive “entwinement” between the
State and the Unions...........................

10

II. A UNION MAY NOT CONDITION
AN EMPLOYEE’S VOICE AND VOTE
ON WORKPLACE CONDITIONS UPON
PAYMENT FOR UNION POLITICAL
ACTIVITIES .............................................

12

A. The Massachusetts Supreme Judicial
Court’s opinion conflicts with this
Court’s precedents in Janus and
Rutan ...................................................

12

B. The Massachusetts Supreme Judicial
Court failed to subject coerced speech
to any level of First Amendment
scrutiny ................................................

16

C. Knight is inapposite to the present
case .......................................................

17

CONCLUSION ....................................................

20

APPENDIX
APPENDIX A: DISMISSAL LETTER, Commonwealth of Massachusetts, Department
of Labor Relations (November 18, 2014) .......

1a

APPENDIX B: DISMISSAL LETTER AFFIRMATION, Commonwealth of Massachusetts,
Department of Labor Relations (February
23, 2015) .........................................................

25a

APPENDIX C: OPINION, Massachusetts
Supreme Judicial Court (April 9, 2019) ........

40a

v
TABLE OF CONTENTS—Continued
Page
APPENDIX D: Relevant Massachusetts Statutes:
G.L.c. 150E § 4 ............................................
G.L.c. 150E § 5 ............................................
G.L.c. 150E § 6 ............................................
G.L.c. 150E § 12 ..........................................

69a
73a
74a
75a

APPENDIX E: MEMORANDUM, Massachusetts Teachers Association, Division of
Legal Services (January 10, 2014) ................

77a

vi
TABLE OF AUTHORITIES
CASES

Page(s)

Abood v. Detroit Bd. of Educ.,
431 U.S. 209 (1977) ................................. 5, 6, 18
Associated Builders & Contractors v.
Carpenters Vacation & Holiday Tr. Fund,
700 F.2d 1269 (9th Cir. 1983) ...................

4

Beck v. CWA,
776 F.2d 1187 (4th Cir. 1985) ...................

4

Brentwood Acad. v. Tenn. Secondary
Sch. Athletic Assn,
531 U.S. 288 (2001) ......................... 7, 10, 11, 12
Chicago Teachers Union,
Local No. 1 v. Hudson,
475 U.S. 292 (1986) ...................................

16

CWA v. Beck,
487 U.S. 735 (1988) ...................................

4, 5

Ellis v. Railway Clerks,
466 U.S. 435 (1984) ...................................

5

Elrod v. Burns,
427 U.S. 347 (1976) ...................................

12

Flagg Bros., Inc. v. Brooks,
436 U.S. 149 (1978) ...................................

9

Hallinan v. FOP, Lodge No. 7,
570 F.3d 811 (7th Cir. 2009) .....................

7

Harris v. Quinn,
573 U.S. 616 (2014) ................................... 12, 16
Jackson v. Metro. Edison Co.,
419 U.S. 345 (1974) ...................................

7, 9

vii
TABLE OF AUTHORITIES—Continued
Page(s)
Janus v. AFSCME, Council 31,
138 S. Ct. 2448 (2018) ..............................passim
Knox v. SEIU, Local 1000,
567 U.S. 298 (2012) ................................... 15, 16
Kolinske v. Lubbers,
712 F.2d 471 (D.C. Cir.1983) ....................

4

Linscott v. Millers Falls Co.,
440 F.2d 14 (1st Cir. 1971) .......................

4

Lugar v. Edmondson Oil Co.,
457 U.S. 922 (1982) ...................................

6, 8

Manhattan Cmty. Access Corp. v. Halleck,
139 S. Ct. 192 (2019) .................................

9

Minn. State Bd. for Cmty. Colls. v. Knight,
465 U.S. 271 (1984) ..................................passim
NLRB v. Bishop of Chicago,
440 U.S. 490 (1979) ...................................

4

Perry v. Sindermann,
408 U.S. 593 (1972) ...................................

16

Price v. UAW,
927 F.2d 88 (2nd Cir. 1991) ......................

4

Reid v. McDonnell Douglas Corp.,
443 F.2d 408 (10th Cir. 1971) ...................

4

Rendell-Baker v. Kohn,
457 U.S. 830 (1982) ...................................

8

Rumsfeld v. Forum for Acad. and
Institutional Rights, Inc.,
547 U.S. 47 (2006) .....................................

13

viii
TABLE OF AUTHORITIES—Continued
Page(s)
Rutan v. Republican Party of Illinois,
497 U.S. 62 (1990) ......................... 13, 14, 16, 19
Ry. Emps’ Dep’t v. Hanson,
351 U.S. 225 (1956) ...................................

5

Seay v. McDonnell Douglas Corp.,
427 F.2d 996 (9th Cir. 1970) .....................

4

SEIU, Local 509 v. Labor Relations Commn.,
729 N.E.2d 1100 (2000) ............................ 6, 10
Speiser v. Randall,
357 U.S. 513 (1958) ...................................

12

Steele v. Louisville & N. R.R.,
323 U.S. 192 (1944) ................................... 9, 18
Univ. of Great Falls v. NLRB,
278 F.3d 1335 (D.C. Cir. 2002) .................

4

White v. CWA,
370 F.3d 346 (3d Cir. 2004) ......................

4

CONSTITUTION
U.S. Const. amend. I ...................................passim
U.S. Const. amend. XIV ...............................

7, 8

STATUTES
28 U.S.C. § 1257(a) .......................................

1

42 U.S.C. § 1983 ...........................................

8

Massachusetts Statutes:
G.L.c. 150E § 5 ..........................................

10

G.L.c. 150E § 6 ..........................................

10

ix
TABLE OF AUTHORITIES—Continued
Page(s)
G.L.c. 150E § 10 ........................................

10

G.L.c. 150E § 10(a)(5) ...............................

10

G.L.c. 150E § 11 ........................................

10

G.L.c. 150E § 12 ...................................... 3, 8, 10
G.L.c. 180 § 17A ........................................

10

OTHER AUTHORITIES
James Sherk, Unelected Representatives:
94 percent of Union Members Never
Voted for a Union, The Heritage
Foundation (August 30, 2016) https://
www.heritage.org/jobs-and-labor/report/
unelected-representatives-94-percentunion-members-never-voted-union ..........
R.

19

Kearney & P. Mareschal, Labor
Relations in the Public Sector (5th ed.
2014) ..........................................................

9

Stephen G. Breyer, Reflections on the Role
of Appellate Courts: A View from the
Supreme Court, 8 J. of App. Prac. &
Process 91 (2006) ......................................

17

PETITION FOR WRIT OF CERTIORARI
Petitioners Ben Branch, Wm. Curtis Conner, Deborah
Curran, and Andre Melcuk (“Educators” or “Petitioners”)
respectfully petition for a writ of certiorari to review
the judgment and order of the Massachusetts Supreme
Judicial Court.
OPINIONS BELOW
The opinion of the Massachusetts Supreme Judicial
Court, reported at 120 N.E.3d 1163, is reproduced in
Appendix C (Pet. App. 40a-68a).
JURISDICTION
The Massachusetts Supreme Judicial Court entered
judgment on April 9, 2019. This Court has jurisdiction
under 28 U.S.C. § 1257(a).
PROVISIONS INVOLVED
Relevant statutory provisions are reproduced in
Appendix D (Pet. App. 69a-76a).
STATEMENT OF THE CASE
This Court in Janus v. AFSCME, Council 31, 138 S.
Ct. 2448 (2018), invalidated compulsory union fees
imposed on public employees for bargaining purposes
because they violate the speech rights of employees
who decline to join the union. This petition challenges
a parallel aspect of union compelled speech: barring
public employees from a voice and a vote in their workplace conditions if they do not pay union dues. Both
situations involve compulsion, but the violation of
employee speech rights is more acute here. Employees
who wish to participate in determining their working
conditions are compelled to support not only union

2
collective bargaining expenses, but union partisan
political expenses as well.
Payroll and other employee-related expenses at the
local level of government are substantial, typically
constituting up to 70% of the budget. This portion of
the budget is determined through closed-door negotiations with public employee unions. Taxpayers have no
role in these negotiations, and these unions are not
politically accountable to taxpayers. Here, the union
closes the door to democracy even further by blocking
the employees it represents from having a voice or
vote on their working conditions unless they agree to
support financially the union’s political activity.
Ben Branch, Wm. Curtis Conner and Andre
Melcuk are University of Massachusetts employees.
Dr. Branch is Professor of Finance in the Isenberg
School of Management. Dr. Conner is Professor of
Chemical Engineering. Dr. Melcuk is Director of
Departmental Computing at the Silvio O. Conte
National Center for Polymer Research. Deborah Curran
is a middle school teacher in the Hanover Public
Schools. These Educators are not union members, but
all are exclusively represented for collective bargaining by affiliates of the Massachusetts Teachers
Association and the National Education Association
(“Unions”).
The Unions have an official policy barring the
Educators from a voice or vote in their workplace
conditions. The Massachusetts Teachers Association
sent the following “WARNING” to all nonmembers
represented by its affiliates in Massachusetts: if you
choose not to join the Unions and subsidize its partisan
political expenses, “YOU WILL NOT BE ENTITLED
TO THE FOLLOWING SERVICES AND BENEFITS.” Pet App. 78a. (emphasis in original). In

3
particular, the warning said, “nonmembers do not
participate in the collective activities and decisionmaking of the association that influences the terms
and conditions of [their] employment.” Id.1
In the summer and fall of 2014, the Educators
sought to secure their right to have a voice and a vote
in their workplace conditions without giving up their
political autonomy. Accordingly, they filed a series of
prohibited practice charges with the Commonwealth
Employment Relations Board of the Department of
Labor Relations (“Board”) raising their statutory and
constitutional claims against the Unions and their
employers, the University of Massachusetts and the
Hanover School Committee.
The Board consolidated the claims and an Investigator
dismissed all charges. Pet. App. 1a-24a (Appendix A).
The Educators appealed to the Board, which affirmed
the dismissal, Pet. App. 25a-39a (Appendix B), and
then appealed to the Massachusetts Appeals Court.
On its own motion, the Supreme Judicial Court of
Massachusetts granted direct review and affirmed the
dismissal by entering judgment for Respondents on
April 9, 2019.2 Pet. App. 40a-68a (Appendix C).

1

Omitted from the beginning of this quote is the phrase:
“[t]herefore, apart from the ratification of the contract.” After Janus,
nonmembers can no longer vote on ratifying the contract because
G.L.c. 150E § 12 requires their vote only if fees are compelled.
2

The Educators’ charges were filed before Janus and contained several other challenges associated with the validity of
compulsory union fees and related procedures. The Supreme
Judicial Court vacated as moot all prior decisions on these other
issues based on the promise of the Unions and the Commonwealth of Massachusetts that they would no longer compel union
fees. The ruling on these other challenges is not at issue.

4
REASONS FOR GRANTING THE PETITION
For decades, lower courts have disagreed about
whether compulsion arising from government-granted
union exclusive representation creates state action.
Some courts have found state action in the private
sector under the National Labor Relations Act. Beck v.
Commc’ns Workers, 776 F.2d 1187, 1205 (4th Cir.
1985); Linscott v. Millers Falls Co., 440 F.2d 14, 16-17
(1st Cir. 1971); Seay v. McDonnell Douglas Corp., 427
F.2d 996, 1003-04 (9th Cir. 1970); see Associated
Builders & Contractors v. Carpenters Vacation & Holiday
Tr. Fund, 700 F.2d 1269, 1275 (9th Cir. 1983). Others
do not. White v. Commc’ns Workers, 370 F.3d 346, 353
(3d Cir. 2004); Price v. UAW, 927 F.2d 88, 92 (2nd Cir.
1991); Kolinske v. Lubbers, 712 F.2d 471, 474-80 (D.C.
Cir.1983)3; Reid v. McDonnell Douglas Corp., 443 F.2d
408, 410 (10th Cir. 1971).
This Court has assumed state action under the NLRA.
In NLRB v. Catholic Bishop of Chicago, 440 U.S. 490
(1979), for example, a bare majority decided that the
NLRA did not apply to religious schools because otherwise “we would be required to decide whether that
was constitutionally permissible.” Id. at 499. A four
member dissent contended that the NLRA did apply
and “the constitutional questions presented would have
to be reached.” Id. at 518. And in a later case, CWA v.
Beck, 487 U.S. 735 (1988), this Court avoided the issue
by construing the NLRA “so as to avoid serious doubt”
about its constitutionality. Id. at 761-62.

3

Although Kolinske rejected state action, the D.C. Circuit later
assumed state action in the Board imposition of collective bargaining on a religious school. Univ. of Great Falls v. NLRB, 278
F.3d 1335, 1341 (D.C. Cir. 2002).

5
Before Beck, this Court found state action in private
sector union compulsion arising under the Railway
Labor Act. See Ellis v. Railway Clerks, 466 U.S. 435,
455-56 (1984); Ry. Emps.’ Dep’t v. Hanson, 351 U.S.
225, 232 (1956). Janus nevertheless suggested the
finding of state action under the RLA is “questionable
today,” citing the circuit conflict in NLRA cases, but
did not resolve that conflict. 138 S. Ct. at 2479 & n.24.
The Supreme Judicial Court dove into this conflict
by taking the extreme position that there is no state
action involved with union compulsion even in the
public sector. Pet. App. 64a-65a. As a result of this
continuing and important conflict among the lower
courts, this Court should resolve whether union compulsion linked to exclusive representation constitutes
state action.
A second basis for review is that this Court might
understandably believe that it finally resolved in Janus
the long-standing dispute over compulsory union fees.
Unfortunately, the Unions found another way to compel
union fees in a more aggressive manner than that
permitted even in Abood v. Detroit Board of Education,
431 U.S. 209 (1977), which Janus overruled, 138 S. Ct.
at 2486. Using their state-granted power as the
Educators’ monopoly bargaining representative, the
Unions block all but their members from any involvement in the negotiating process. The Unions forbid
nonmembers to attend meetings to discuss bargaining
proposals, ban them from holding a bargaining position,
running for such a position, or even voting on those
who bargain for them. Nonmembers also have no right
to vote on the contract. This discrimination turns on
one thing only: nonmembers’ lack of financial support
for the Unions’ partisan political and ideological activities. Thus, the Unions have hit upon an extortionary

6
scheme to accomplish what they could not compel even
under Abood: force nonmembers to subsidize the full
array of union political and ideological activities.
I. THE CIRCUIT SPLIT ON STATE ACTION
MAKES THIS AN IDEAL VEHICLE TO
RESOLVE WHETHER AN INVOLUNTARY
EXCLUSIVE BARGAINING REPRESENTATIVE MAY COMPEL NONMEMBERS TO
CHOOSE BETWEEN THEIR POLITICAL
AUTONOMY AND A VOICE AND A VOTE
IN THEIR WORKING CONDITIONS.
If an organization can engage in a specific activity
only by government empowerment, then that activity,
by force of logic, must be one committed by the government. Here, the government created an empowerment
system that extinguishes the Educators’ right to represent themselves with their employers, grants monopoly
representation power to the union, and then government negotiates solely with the union at the bargaining
table. Further enhancing this exclusivity, Massachusetts
makes “direct dealing” between government employers
and individual employees unlawful. SEIU, Local 509
v. Labor Relations Comm’n., 729 N.E.2d 1100, 1104
(2000).
This constitutes state action. The deprivation of
non-union employees’ rights is “caused by the exercise
of some right or privilege created by” the state’s granting the union exclusive bargaining power, making the
union “a person for whom the State is responsible.”
Lugar v. Edmondson Oil Co., Inc., 457 U.S. 922, 937
(1982). Thus, action taken by a public sector union to
deprive non-union employees of a voice and a vote is
state action.

7
Private action “can constitute state action.” Hallinan
v. FOP, 570 F.3d 811, 815 (7th Cir. 2009). And unions
are usually private actors. Id. What has been inconsistent in the decisions of most courts (including this
Court) is whether union compulsion in the collective
bargaining context constitutes state action.
This Court’s holdings in public sector cases assume
state action. For example, Janus recognized that
when the government makes a union the exclusive
representative of all employees in a unit, it causes “a
significant impingement on associational freedoms.”
138 S. Ct. at 2478. The Unions’ role as exclusive representative could not impinge employees’ associational
freedoms unless it constitutes state action. See Jackson
v. Metro. Edison Co., 419 U.S. 345, 349 (1974) (noting
that “private action is immune from the restrictions of
the Fourteenth Amendment.”)
State action is present here in the Unions’ decision
to exclude non-members from having a voice and a
vote in their workplace conditions for at least three
reasons. First, this Court found state action in Minnesota
State Board for Community Colleges v. Knight, 465
U.S. 271 (1984), and there is no reason to distinguish
that case from this one on that question. Second, state
action is present when an exclusive representative
performs a traditional “state function” by setting hours,
wages and other terms and conditions of employment
for public employees. Third, under the “entwinement”
theory of Brentwood Academy v. Tennessee Secondary
School Athletic Ass’n, 531 U.S. 288, 298 (2001), there
is sufficient intermingling between the state and the
Unions to satisfy the state action requirement.

8
A. State action is present because this
Court found state action in Knight, and
there is no reason to distinguish between
that case and this case on that point.
“The ultimate issue in determining whether a person
is subject to suit under § 1983 is the same question
posed in cases arising under the Fourteenth Amendment:
is the alleged infringement of federal rights ‘fairly
attributable to the State?’” Rendell-Baker v. Kohn, 457
U.S. 830, 838 (1982) (quoting Lugar, 457 U.S. at 937).
Given that principle, this Court’s opinion in Knight
conspicuously lacks any discussion of state action.
State action must be present for any constitutional
claim, and because the Knight Court decided the merits
of the constitutional claims asserted there, the Court
obviously assumed state action was present. Moreover,
the Court assumed state action not just for union exclusive representation as to “meet and negotiate” provisions
over terms and conditions of employment, but also for
the “meet and confer” process over only loosely connected
employment policy. 465 U.S. at 291–92.
Here, the employees seek a voice and a vote in
the collective bargaining process. Since before Janus,
in their role as exclusive bargaining representative,
the Unions have prohibited non-members from
“‘participat[ing] in affiliate decision-making,’ specifically to attend union meetings (other than contract
ratification meetings) or ‘vote on election of officers,
bylaw modifications, contract proposals or bargaining
strategy.’” SJC Op. at 5. (Pet. App. 44a (emphasis
added).) This is specifically authorized by the State.
G.L.c. 150E § 12. Since Janus, because a contract
cannot compel union fees, nonmembers have no right
to attend contract ratification meetings and vote on

9
the contract. The decision below that there is no state
action here conflicts with Knight on that question.
B. State action is present because public
sector union exclusive representatives
perform a traditional state function by
determining terms and conditions of
governmental employment.
Public sector employers “have traditionally and exclusively performed the function,” Manhattan Community
Access Corp. v. Halleck, 139 S. Ct. 1921, 1929 (2019),
of setting their employees’ terms and conditions of
employment. Janus, 138 S. Ct. at 2483 (“Public-sector
unionism was a relatively new phenomenon in 1977.
The first state to permit collective bargaining by
government employees was Wisconsin in 1959. R.
Kearney & P. Mareschal, Labor Relations in the Public
Sector 64 (5th ed. 2014).”). When the state delegates
control over those terms and conditions to a third
party (here, the Unions), that third party performs a
government function. This Court has long held that
performance of a traditional government function by a
private entity constitutes state action. Id.; see Jackson
v. Metro. Edison Co., 419 U.S. at 352; Flagg Bros., Inc.
v. Brooks, 436 U.S. 149, 158–60 (1978).
In Manhattan Community Access Corp., this Court
referenced “running elections and operating a company
town” as signature examples of state action. 139 S. Ct.
at 1929. And in Steele v. Louisville & Nashville Railroad
Co., 323 U.S. 192, 202 (1944), exclusive representation
was compared to the power of a “legislative body.” Here
the issue is how the Unions exercise their “legislative
body” authority to run elections (Pet. App. 78a) which
set the terms and conditions of employment for
the Educators. When unions undertake setting the
terms and conditions of employment by rigging the

10
underlying elections to force political contributions,
that corrupts the traditional and exclusive role of the
state to determine employee wages.
C. State action is present because of
pervasive “entwinement” between the
State and the Unions.
In Brentwood Academy, this Court found that
private organizations become state actors when their
actions are pervasively entwined with public institutions. 531 U.S. at 298. Pervasive entwinement exists
here. The state and the union are entwined in these ways:
1. Massachusetts law (G.L.c. 150E § 5) creates
exclusive representation.
2. Massachusetts law mandates that public employers bargain in good faith with the exclusive
representative. G.L.c. 150E §§ 6 & 10(a)(5).
3. Massachusetts prohibits public employers from
dealing directly with employees (other than
those the union authorizes to deal with an
employer) about wages and employment benefits. SEIU, Local 509, 729 N.E.2d at 1104.
4. Massachusetts supervises and enforces collective bargaining with the exclusive bargaining
representative and the resulting contract. G.L.c.
150E §§ 10 & 11.
5. Massachusetts collects members’ dues for exclusive representatives and limits when and how
employees can terminate their authorization of
dues collection. G.L.c. 180 §17A.
6. Massachusetts law (G.L.c. 150E § 12) only
obliges unions to allow nonmembers to vote on
a contract which contains a clause making
union fees compulsory.

11
In Brentwood, Tennessee had essentially granted
exclusive control over high school athletics to a private
association. 531 U.S. at 291–93. Eighty-four percent of
the schools involved were public. Id. at 291. The state
legislature officially “designat[ed]” the association as
“the organization to supervise and regulate the athletic activities in which the public junior and senior
high schools in Tennessee participate on an interscholastic basis.” Id. at 292. Although the state later
repealed this designation, the association continued to
enforce rules adopted and approved by the State Board
of Education. Id. at 301. The association’s employees
were not state employees but had a right to participate
in the state’s retirement system. Id. at 291.
This Court held that the association’s conduct constituted state action. This was because the association
included “most public schools located within the State,
acts through their representatives, draws its officers
from them, is largely funded by their dues and income
received in their stead, and has historically been seen
to regulate in lieu of the State Board of Education's
exercise of its own authority.” Id. at 290–91.
Like the association in Brentwood, the Unions draw
their exclusive authority from the members of the
bargaining unit they represent, who are state employees, and from the state itself. Massachusetts does
not merely endorse the existence of the union as the
state board did in Brentwood, it enforces the union’s
authority as the exclusive representative of a bargaining unit. Moreover, the Unions draw their income
from the government employees they represent, and
the state collects that money for the Unions. And
exclusive representation “regulate[s] in lieu of” the
state’s authority to unilaterally control wages and

12
hours and other terms and conditions of employment
for state employees.
Just as the association in Brentwood was granted
authority by the state schools and the state board to
regulate high school athletics, here the Unions have
been granted authority by the state to regulate the
terms and conditions of employment for all bargaining
unit employees, whether they desire it or not. Like
the association’s authority and conduct in Brentwood
Academy, that exclusive authority and its exercise
constitutes state action.
II. A UNION MAY NOT CONDITION AN
EMPLOYEE’S VOICE AND VOTE ON WORKPLACE CONDITIONS UPON PAYMENT
FOR UNION POLITICAL ACTIVITIES.
A. The Massachusetts Supreme Judicial
Court’s opinion conflicts with this
Court’s precedents in Janus and Rutan.
It is a “bedrock principle that, except perhaps in the
rarest of circumstances, no person in this country may
be compelled to subsidize speech by a third party that
he or she does not wish to support.” Harris v. Quinn,
573 U.S. 616, 656 (2014). Here, the Unions seek to
“produce a result which [they] [can]not command
directly” by conditioning the benefit of a voice and a
vote on workplace conditions on support for their
politics. See Speiser v. Randall, 357 U.S. 513, 526
(1958); see also Elrod, 427 U.S. at 358 n.11 (“This
Court’s decisions have prohibited conditions on public
benefits, in the form of jobs or otherwise, which
dampen the exercise generally of First Amendment
rights, however slight the inducement to the individual
to forsake those rights) (emphasis added).

13
Two of this Court’s precedents finding compelled
speech violations are especially instructive here: Janus
and Rutan v. Republican Party of Illinois, 497 U.S. 62
(1990). Janus holds that political compulsion in the form
of mandatory union fees violates the First Amendment
rights of public employees. 138 S. Ct. at 2459–60. And
both Janus and Rutan stand for the principle that
more subtle forms of political coercion also violate
public employees’ First Amendment rights.
First, Janus recognizes that the “government may
not ‘impose penalties or withhold benefits based on
membership in a disfavored group’ where doing so
‘ma[kes] group membership less attractive.’” 138 S. Ct.
at 2468 (emphasis added) (quoting Rumsfeld v. Forum
for Acad. & Inst’l Rights, Inc., 547 U.S. 47, 69 (2006)).
Janus emphasized that any subsidization of union
politics must be “freely given.” Id. at 2486. Yet the
Unions here are withholding the benefits of a voice
and a vote on terms and conditions of employment,
thus making non-membership less attractive, to coerce
employees into membership and financial support of
the Unions’ politics.
Second, Rutan holds that “promotions, transfers,
and recalls after layoffs based on political affiliation
or support” are impermissible infringements on public
employees’ right to free expression. 497 U.S. at 75. But
it also notes that “the First Amendment . . . protects
state employees not only from patronage dismissals
but also from ‘even an act of retaliation as trivial as failing to hold a birthday party for a public employee . . .
when intended to punish her for exercising her free
speech rights.’” Id. at 75 n.8 (citation omitted).
In short, the test adopted by this Court is “whether
the government, without sufficient justification, is
pressuring employees to discontinue the free exercise

14
of their First Amendment rights.” Id. at 79. It is
governmental “pressure” that unconstitutionally “chill[s]
the exercise of protected belief and association by
public employees.” Id. at 73 (public employees “will
feel a significant obligation to support political positions held by their superiors, and to refrain from
acting on the political views they actually hold, in
order to progress up the career ladder.”)
The Rutan Court reasoned that public employers
violate the First Amendment when they condition
employment benefits on the support of political viewpoints. Such is the case here. The Unions explicitly
condition the benefit of a voice and a vote on workplace
matters on joining the Unions and financially supporting the Unions’ political viewpoints, which effectively
“discontinue[s] the [nonmembers’] free exercise of
their First Amendment rights.” Id. at 79.
Although Rutan dealt with the political patronage
practices of public employers, and this case involves
labor relations between public sector unions and
non-member public employees, this Court has treated
public sector labor relations as closely analogous to
the patronage context. In Janus, this Court expressly
aligned its public sector union First Amendment jurisprudence with the patronage line of cases. See Janus,
138 S. Ct. at 2483–84. The Court suggested that, if
anything, these labor relations cases warrant greater
First Amendment scrutiny than do the patronage line
of cases due to the historical pedigree of patronage
practices. Id. at 2484 (“It is an odd feature of our First
Amendment cases that political patronage has been
deemed largely unconstitutional, while forced subsidization of union speech (which has no such [historical]
pedigree) has been largely permitted.”). The Court,
consequently “end[ed] the oddity of privileging compelled

15
union support over compelled party support and
br[ought] a measure of greater coherence to our First
Amendment law.” Id.
This case presents an ideal vehicle to bring an even
greater coherence to the Court’s First Amendment
jurisprudence. Indeed, given those observations in
Janus, it would be inconsistent to, on the one hand,
protect public employees from being denied benefits—
e.g., promotions or transfers—for exercising their
First Amendment freedoms in the patronage context,
yet on the other hand allow public employees to be
denied benefits—a voice and a vote on workplace
conditions—for exercising their First Amendment
freedoms in the labor-relations context. As Janus recognized, it makes no historical sense to shield public
employees from being pressured to support political
parties while not shielding them from pressure to
support politically active labor unions which promote
political candidates.
If this Court grants review, exclusive representation
will remain unchanged throughout the United States.
The Educators do not argue that the regime of exclusive representation is facially unconstitutional. Rather,
they contend that the Union here has weaponized its
status as a monopoly bargaining representative to coerce
support for its political and ideological activities.
There are many valid work-related reasons to deny
benefits to employees in the public workplace. Holding
the wrong political viewpoints is not one of them. “The
First Amendment . . . does not permit a public-sector
union to adopt procedures that have the effect of
requiring objecting nonmembers to lend the union
money to be used for political, ideological, and other
purposes not germane to collective bargaining.” Knox
v. SEIU, Local 1000, 567 U.S. 298, 302–303 (2012)

16
(citing Chicago Teachers Union, Local No. 1 v. Hudson,
475 U.S. 292, 305 (1986)) (emphasis added).
“[T]his Court has made clear that even though a
person has no ‘right’ to a valuable governmental benefit and even though the government may deny him the
benefit for any number of reasons, there are some
reasons upon which the government may not rely. It
may not deny a benefit to a person on a basis that
infringes his constitutionally protected interests—
especially, his interest in freedom of speech.” Perry v.
Sindermann, 408 U.S. 593, 597 (1972).
B. The Massachusetts Supreme Judicial
Court failed to subject coerced speech
to any level of First Amendment
scrutiny.
In Janus, this Court subjected compulsory union
fees to “‘exacting’ scrutiny.” 138 S. Ct. at 2465. Under
that standard, compulsion to support a union will not
survive unless it “‘serve[s] a compelling state interest
that cannot be achieved through means significantly
less restrictive of associational freedoms.’” Id. (quoting
Knox, 567 U.S. at 310). The Court on several recent
occasions has expressed trepidation about continuing
to apply exacting scrutiny to the labor relations context, because the speech at issue in this context is “not
commercial speech.” See, e.g., Janus, 138 S. Ct. at
2465 (questioning “whether [exacting scrutiny] provides
sufficient protection for free speech rights”); Harris,
573 U.S. at 648 (“it is apparent” that the speech involved
in agency fee cases “is not commercial speech”).
In Rutan, the Court applied strict scrutiny to coerced
speech. 497 U.S. at 70 n.4, 74. For the reasons just
discussed, it would make little sense to provide the
highest level of First Amendment protection to public

17
employees in the patronage context while simultaneously providing them with less protection in the labor
relations context. Although the Unions’ coercive tactics
cannot survive either strict or exacting scrutiny, this
case nonetheless presents an ideal vehicle for this
Court to set a uniform standard on which level of First
Amendment scrutiny applies in the labor relations
context. See Stephen G. Breyer, Reflections on the Role
of Appellate Courts: A View from the Supreme Court, 8
J. of App. Prac. & Process 91, 92 (2006) (emphasizing
that the Supreme Court is a body tasked with
“providing a uniform rule of federal law in areas that
require one.”).
Unlike this Court’s contemplation of whether the
highest standard of scrutiny applies, the Massachusetts
Supreme Judicial Court did not apply any level of First
Amendment scrutiny to the coerced speech involved
here. Rather than apply even the lower level of First
Amendment protection under exacting scrutiny, the
Massachusetts Supreme Judicial Court simply asserted
that there were “no constitutional problems,” reasoning that the State and the Unions’ interest in union
“majority rule” and the Unions’ duty of fair representation overrode any First Amendment interest held
by the Educators. Pet. App. 63a-68a.
This Court should clarify the applicable level of First
Amendment scrutiny to this Court’s labor relations
jurisprudence.
C. Knight is inapposite to the present case.
Despite the Massachusetts Supreme Judicial Court’s
holding, this Court’s decision in Knight, 465 U.S. 271
(1984), is inapposite. Knight affirmatively disclaimed
that partisan activity fees and associated union compulsion were involved in the Court’s central holding

18
and analysis. Id. at 289 n.11, 291 n.13 (union fees were
“not at issue in this lawsuit,” and “this case involve[d]
no claim that anyone is being compelled to support
[the union’s] activities”). To the extent that Knight
spoke to the issue of union fees, it supports the
Educators’ position where it observed and reiterated
Abood’s holding that “employees may not be compelled
to support a union’s ideological activities unrelated to
collective bargaining.” Id. at 291 n.13.
The Educators want to voice their own views on
wages, vacation time, workplace proposals, and who sits
at the negotiating table representing them without
having to give up their political autonomy. The court
below was concerned that this would allow “divideand-conquer tactics by employers” against the Unions.
Pet. App. 67a. That misapprehends the nature of union
representation. A union is not an entity separate from
the views of the members of the bargaining unit.
Rather, it is supposed to be the agent for receiving,
resolving, and conveying their views to the employer.
Steele v. Louisville & N. R.R., 323 U.S. 192, 204 (1944).
Presumably, persuasive argument and majority vote
will carry the day within the Unions, and if most Union
members agree with the Educators’ voice (or even if
they do not), the original purpose of the Unions as representative of employee views is fulfilled, not impaired.
The Massachusetts Supreme Judicial Court’s “divideand-conquer” argument reveals yet another defect in
its analysis of the Educators’ constitutional claims. It
labeled formulating bargaining positions and choosing
which employees sit at the bargaining table as an
“internal” policy, Pet. App. 54a, cited several cases
referring to them as internal union matters, id. at 62a64a, and expressed concern about protecting “majority
rule.” Id. at 66a. It then quoted Knight to equate union

19
elections with majority rule in democratic government. Pet. App. 66a. This is a false analogy for two
reasons. First, the winning political party in American
elections cannot demand political contributions from
those who lost. Second, the idea that the state has
an interest in protecting unions runs headlong into
Rutan’s determination that the state has no interest
in protecting political parties. The state has no more
interest in protecting labor unions than it does political parties. This American election comparison suffers
from the additional defect that American elections are
held regularly, while union decertification elections
are rare. James Sherk, Unelected Representatives:
94 percent of Union Members Never Voted for a
Union, The Heritage Foundation (August 30, 2016)
https://www.heritage.org/jobs-and-labor/report/unelect
ed-representatives-94-percent-union-members-nevervoted-union.
The Massachusetts Supreme Judicial Court painted
the Educators’ claim as a facial challenge to the regime
of exclusive representation, and consequently followed
Knight in adjudicating their case. Implicit in the lower
court’s opinion is the belief that any constitutional challenge that remotely involves the regime of exclusive
representation is automatically barred by Knight.
That belief ignores the distinction between a union’s
statutory right to be the exclusive representative in
the collective bargaining process and how the union
uses that statutory right. Only the second consideration is involved here, and the lower court erred in
entertaining the first.

20
CONCLUSION
This Court should take this case to resolve the
split among the lower courts on state action, clarify
the level of First Amendment scrutiny that applies in
labor relations cases which involve infringement on
speech and association rights, and hold that no state
interest justifies allowing unions to weaponize their
state-granted authority as exclusive representative to
force public employees to choose between having a
voice and a vote in their working conditions and
preserving their political autonomy.
The writ of certiorari should be granted on both
questions presented.
Respectfully submitted,
BRUCE N. CAMERON
Counsel of Record
AARON SOLEM
FRANK GARRISON
NATIONAL RIGHT TO WORK LEGAL
DEFENSE FOUNDATION, INC
8001 Braddock Road
Suite 600
Springfield, VA 22160
(703) 321-8510
bnc@nrtw.org
Counsel for Petitioners
July 8, 2019

APPENDIX

1a
APPENDIX A
THE COMMONWEALTH OF MASSACHUSETTS
DEPARTMENT OF LABOR RELATIONS
19 STANIFORD STREET, 1ST FLOOR
BOSTON, MASSACHUSETTS 02114
Telephone: (617) 626-7132
FAX: (617) 626-7157
www.mass.gov/dlr
[LOGO]
DEVAL L. PATRICK
GOVERNOR
ERICA F. CRYSTAL
DIRECTOR
COMMONWEALTH EMPLOYMENT
RELATIONS BOARD
MARJORIE F. WITTNER
CHAIR
ELIZABETH NEUMEIER
BOARD MEMBER
HARRIS FREEMAN
BOARD MEMBER
November 18, 2014
Bruce N. Cameron, Esq.
National Right to Work
Legal Defense Foundation
8001 Braddock Road, Suite 600
Springfield, VA 22160
Ethan Mutschler, Esq.
Office of the General Counsel
University of Massachusetts
333 South Street, 4th Floor
Shrewsbury, MA 01545

2a
Amy Laura Davidson, Esq.
Sandulli Grace PC
44 School Street, Suite 1100
Boston, MA 02108
Rebecca L. Bryant, Esq.
Stoneman, Chandler & Miller
99 High Street
Boston, AM 02110
RE: ASF-14-3744, Massachusetts Society of Professors/
MTA/NEA, the University of Massachusetts and Ben
Branch and William Curtis Conner, Jr.
ASF-14-3919, Hanover Teachers Association/MTA/
NEA, Hanover School Committee and Deborah
Curran
ASF-14-3920, Professional Staff Union/MTA/NEA,
the University of Massachusetts, and Andre Melcuk
Dear Ms. Davidson, Ms. Bryant, Mr. Cameron, and
Mr. Mutschler:
On June 2, 2014, Ben Branch (Branch) filed a charge
with the Department of Labor Relations (DLR), alleging that the Massachusetts Society of Professors/
MTA/NEA (MSP) had demanded an agency service
fee from him that exceeded his pro-rata share of the
costs of collective bargaining and contract administration (“amount allegation”). On August 6, 2014,
Branch filed an amended charge to rescind the
amount allegation and substitute an allegation that
the MSP had demanded an invalid agency service
fee, and his amended charge included three other
charging parties: William Curtis Conner, Jr. (Conner),
Deborah Curran (Curran), and Andre Melcuk (Melcuk)

3a
(collectively, the Charging Parties).1 All four Charging Parties allege that the unions representing them
violated Massachusetts General Laws, Chapter 150E
(the Law), Sections 12 and 10(b)(1), and the United
States Constitution. They also allege that by virtue of
their contractual agreement to an agency service
fee provision, their employers have violated Sections
2, 12, 10(a)(3), 10(a)(1), and the United States
Constitution.
Procedural Background
Because Branch’s and Conner’s positions are both
in the MSP bargaining unit, the DLR separated their
allegations from those that Curran and Melcuk
raised. Pursuant to Section 11 of the Law, as
amended by Chapter 145 of the Acts of 2007, and
Section 15.04 of the DLR’s Rules, I investigated the
Branch/Conner allegations on August 21, 2014,
and investigated the Curran/Melcuk allegations on
October 22, 2014.2
The Charging Parties submitted affidavits from
Branch, Conner, Curran, Melcuk, and four experts:
John Balz (Balz), Emily Pitts Dixon (Dixon),
Michael Podgursky (Podgursky), and George Nerren
1

Branch, Conner and Melcuk are employed by the University
of Massachusetts (University). Branch and Conner are in a
bargaining unit represented by the MSP, and Melcuk is in a
bargaining unit represented by the Professional Staff Union/
MTA/NEA (PSU). Curran works for the the Hanover School
Committee (HSC) and her position is in a bargaining unit
represented by the Hanover Teachers Association/MTA/NEA
(HTA).
2

Curran and Melcuk subsequently filed separate charges
(ASF-14-3919/ASF-14-3920 respectively) but confirmed at the
October 22 investigation that they were raising the same issues
and arguments as did Branch and Conner.

4a
(Nerren). The Unions and the University objected to
all of the affidavits. I admitted the Charging Party
and Balz/Dixon affidavits, but gave all of the
Respondents time to file a response to the Balz/Dixon
affidavits. The Unions subsequently filed a Motion
to Strike the Affidavits, which the Charging Parties
opposed. I issued a ruling on October 16, 2014,
denying the Unions’ Motion to Strike. The Unions
subsequently filed responsive affidavits on or about
November 14, 2014.4
3

3

The Charging Parties only submitted the Podgursky and
Nerren affidavits in the Curran/Melcuk case. I did not accept
those affidavits into the record because neither one contained
any information concerning agency service fee payment, issues,
or procedures in Massachusetts. I also denied the Charging
Parties’ request to accept them as an offer of proof. The DLR’s
rules and procedures for in-person investigations do not require
acceptance of offers of proof for rejected evidence, and the
in-person investigation was not an adjudicatory proceeding
under G.L. c.30A. See Educational Association of Worcester/
MTA/NEA, 14 MLC 1240, MUPL-3063-71/MUPL-3104 (October
20, 1987). Nevertheless, the Charging Parties filed a postinvestigation written offer of proof on October 23, 2014. The
PSU and the HTA opposed inclusion of the Podgursky and
Nerren affidavits in the record as an offer of proof and, on
October 27, 2014, submitted a Motion to Exclude the affidavits.
The Charging Parties filed a Reply to the Motion to Exclude
that same day. I have not reconsidered either decision.
4

On November 14, 2014, the Unions submitted affidavits
from Susan Lee Weissinger, Esq., Michelle Gallagher, Stephen
Lovell, and Maura Sweeney. Because I had only left the record
open at that point for affidavits to respond to the Balz/Dixon
affidavits, I only accepted into the record the portions of
the Weissinger and Gallagher affidavits that corresponded
to information in the Balz/Dixon affidavits. I excluded the
remainder of the Weissinger and Gallagher affidavits, as well as
the Lovell and Sweeney affidavits.

5a
Additionally, all Respondents filed separate motions
to dismiss, and the Charging Parties filed oppositions
to each motion. Because I have incorporated the
arguments contained in the motions and oppositions
into this dismissal letter, I do not address these
motions separately.
Factual Background
Branch and Conner
Branch and Conner are professors employed at the
University of Massachusetts and their positions are
in the MSP bargaining unit. The collective bargaining agreement between the University and the MSP,
which was in effect by its terms from July 1, 2012
through June 30, 2014, contains an agency service fee
provision which requires that each bargaining unit
member who elects not to join or maintain membership in the MSP shall be required to pay an agency
service fee to the MSP as a condition of employment.
In the 2013-2014 school year, as in prior years,
Branch and Conner have declined to join the MSP.
Conner believes that union representation is not in
his best interests, and he does not need or want the
MSP to represent him. He believes that the MSP
advocates for political causes which are inconsistent
with his views, supports political candidates whom
he does not support, and he opposes supporting
activities that are contrary to his political and ideological preferences. Conner participated in an earlier
agency service fee case at the Labor Relations Commission (LRC), 5 (Springfield Education Association
5

The LRC was the predecessor agency to the DLR. Pursuant
to Chapter 145 of the Acts of 2007, the DLR has all of the legal
powers, authorities, responsibilities, duties, rights, and obligations previously conferred on the LRC. The Commonwealth

6a
et. al. and James J. Belhumeur et. al., 23 MLC 233,
ASF-2143 et. al. (April 23, 1977), aff’d in part, rev’d
in part, sub nom., Belhumeur v. Labor Relations
Commission, 432 Mass. 458 (2000), cert. denied 532
U.S. 904 (2001) (Belhumeur)), and is aware of the
duration of the litigation of that case. Similarly,
Branch believes that he and the MSP have dissimilar
views on political causes, political candidates,
approaches to compensation, and rules for work,
promotion and tenure. Branch was also involved in
the Belhumeur litigation.
Branch and Conner have filed agency service fee
charges with the DLR in prior years and have settled
those cases with the MSP. In their settlements,
Branch and Conner have agreed to pay a fee that
constitutes 55% of the MSP dues. This amount is less
than the agency service fees that the MSP had
initially demanded in those years.
On April 14, 2014, the MSP demanded that Branch
and Conner pay an agency service fee for the 20132014 school year. The demands were apportioned as
follows: MSP: $203.90; MTA: $325.84; NEA: $64.76.
Curran
Deborah Curran is a middle school teacher in the
Hanover public school system. In or about 2002,
Curran discontinued her membership in the HTA
because she opposes its politics and policies and
believes that they clash with her religious and
political beliefs. In 2010, she had a dispute with the
HTA surrounding her use of sick time. This dispute
prompted Curran to file a prohibited practice charge
Employment Relations Board (CERB) is the DLR agency
charged with deciding adjudicatory matters, and references to
the CERB include the LRC.

7a
at the DLR against the HTA alleging that the HTA
had breached its duty to represent her fairly in that
situation.6
Although the HTA had sought the inclusion of
an agency service fee provision in prior successor
contract negotiations, the 2012-2015 collective
bargaining agreement between the HSC and the
HTA is the first contract that contains a provision
requiring non-members to pay an agency service
fee. The HSC agreed to it as part of a package of
proposals that settled that contract, and there was no
connection between the HSC’s decision to accept
the proposal and Curran. The agency service fee
provision states that: “[t]he Committee shall not
be obligated to take any action in regard to the
employment of employees delinquent in the payment
of such fees. Bargaining unit members who fail to
pay the agency service fee shall not be subject to
dismissal or suspension, but the Association may
pursue payment through whatever legal means it
deems appropriate.”
The HTA distributes surveys to all bargaining unit
members, including non-union members, prior to
successor collective bargaining negotiations. Curran
has only received one such survey, and that was
during the most recent round of negotiations.
6

The HTA asked me to take administrative notice of the
record in Curran’s prohibited practice case (MUPL-10-4676,
HTA), and Curran did not oppose this request. Curran charged
the HTA with breaching its duty of fair representation when the
HTA president notified the Hanover school superintendent that
Curran was allegedly using sick leave in a contractually
improper way and asked the Superintendent to intervene. The
DLR issued a complaint of prohibited practice which the parties
subsequently settled.

8a
On April 10, 2014, the HTA demanded a fee from
Curran that it apportioned as follows: HTA: $0 7 ;
MTA: $325.84; NEA: $64.76.
Melcuk
Melcuk is employed as Director of Departmental IT
at UMass Amherst and is in the PSU bargaining
unit. Melcuk has declined to join or financially support the PSU because he has “philosophical, political,
emotional, ethical, and psychological” objections to
labor unions. Melcuk believes that he earns a lower
salary because his position in a bargaining unit, and
that the contract between the University and the
PSU has hindered salary increases for him. The PSU
challenges Melcuk’s claim that he could negotiate a
higher salary if his position was not in the PSU
bargaining unit because there is an “equity review”
procedure in the contract by which unit members
can advocate for a salary increase directly with the
University. The initial step in the equity review
process does not require PSU involvement, but if the
University denies the requested increase, the PSU
must participate in any appeal. The PSU acknowledged at the investigation that some department
managers have cited the PSU contract as a reason for
denying requested salary increases.
The PSU distributes surveys to all bargaining unit
members, including non-union members, prior to successor collective bargaining negotiations.8 The PSU
also holds bargaining status update meetings for
bargaining unit members, and those meetings are
open to non-members.
7

The HTA did not demand a fee because it did not conduct
the requisite independent audit of its revenue and expenses.
8

Melcuk did not recall receiving this survey.

9a
The collective bargaining agreement between the
PSU and the University contains a provision requiring non-members to pay an agency service fee.
Melcuk has objected to the amounts that the PSU has
demanded in previous years, and he and the PSU
have resolved the disputes by agreeing to a 55%
reduction from full dues – an amount which is less
than what the PSU initially demanded. On March 7,
2014, the PSU demanded a fee that was apportioned
as follows: PSU: $106.36; MTA: $325.84; NEA:
$64.76.
Common Facts
The MTA maintains a rule stating that that if
bargaining unit members elect to pay an agency
fee rather than become a member of the local
association, MTA, and NEA, the non-member will not
be entitled to certain services and benefits which
are available only to MTA/NEA members, such as
attendance at union meetings or involvement in any
other union activities. These activities and meetings
include participating on local bargaining teams; and
voting on the election of officers, bylaw modifications,
contract proposals and/or bargaining strategy.
None of the Charging Parties are facing discipline
from their employer in connection with the agency
service fee demands.9

9

The University raises the disciplinary issue to argue that
the charges are prematurely filed against it since the University
has not sought to discipline Conner, Branch, or Melcuk.
However, DLR Rule 17.16(2), 456 CMR 17.16(2) prohibits
employers from sanctioning fee payers for failing to pay the fee
once they file a charge and establish any necessary escrow
account. Also, as previously noted, the 2012-2015 contract
between the HTA and the HSC does not require the HSC to

10a
General Allegations
The Charging Parties acknowledge that the Law
mandates dismissal of their charges; their goal here
is to change the Law. Their charges are a facial
challenge to the system of compulsory service fees
contained in Section 12 of the Law, which they argue
is unconstitutional for various reasons.10 They also
challenge the constitutionality of the scheme of
exclusive representation embodied in Section 5. The
Charging Parties recognize that the DLR can only
rule on allegations that the Respondents violated
G.L. c.150E and cannot separately address their constitutional allegations. See Town of West Springfield,
21 MLC 1216, 1222-1223 MUP-7465 (August 19,
1994) (not all constitutional claims arising out of
agency fee disputes are properly brought before the
CERB; CERB’s role is to determine the effect of conduct on an employee’s rights guaranteed under Chapter 150E and not on an employee’s constitutional
rights.) Consequently, I limit my analysis to whether
the Unions’ demands violated G.L. c.150E.
As a threshold issue, I address the Respondents’
claim that the DLR has no jurisdiction over the
Charging Parties’ charges. As previously noted in my
ruling on the Motion to Strike, I disagree. Although
the Charging Parties readily admit that their charges
are a facial challenge to the constitutionality of
Section 12, they raised allegations at the investigation that the service fees demanded violate specific
impose sanctions on fee payers who fail to pay the fee
demanded.
10

The Charging Parties do not allege that the 2013-2014
demands were excessive or deficient in any other way, and
presented no evidence to that effect.

11a
provisions of the Law, i.e. that prohibiting nonmembers from joining a union negotiating team,
while simultaneously requiring service fees, violates
Section 10(b)(1) of the Law by coercing employees
in the exercise of their rights to non-membership;
and that the employers’ agreement to a contractual
service fee provision violated Section 10(a)(3) by
unlawfully retaliating against employees for nonmembership. Further, the fact that the Charging
Parties raise constitutional issues does not necessarily divest the DLR of jurisdiction because the
CERB’s practice is to apply Section 12 of the Law
constitutionally, using decisions of the United States
Supreme Court to guide its construction of the Law.
See Malden Education Association, 15 MLC 1429,
1432, MUPL-2951 (February 2, 1989). Despite a
preference for judicial resolution of certain claims, see
Harrison v. Massachusetts Society of Professors, 405
Mass. 56, 60 n.5 (1989), the SJC has not held that
the DLR has no jurisdiction to handle cases that
challenge service fees on constitutional and statutory
grounds. Finally, these cases contain factual issues
that are appropriate for the agency’s consideration,
i.e. the extent to which the unions allow or prohibit
fee payers from participating in the negotiations
process, or Melcuk’s ability to seek a salary increase
directly from his employer through the equity review
process.
I also dismiss the Employers’ arguments that the
charges are untimely. All four charges were filed
within six months of the date of the service fee
demand, and the period of limitations runs from the
date of the demand, not the date that the contractual
service fee provision was ratified. See DLR Rule
17.06(2), 456 CMR 17.06(2).

12a
1. Specific Allegations against the Employers
In Chicago Teachers Union, Local 1, AFT, AFL-CIO
v Hudson, 475, U.S. 292, 307, n. 20 (1986), the U.S.
Supreme Court stated that since the agency shop
itself is a significant impingement on 1st Amendment
rights, the government and union have a responsibility to provide procedures that minimize that impingement and that facilitate a nonunion employee’s ability to protect his rights (emphasis added). The Charging Parties cite this language to argue that employers
share a union’s obligation to ensure the lawfulness
of any agency service fee demanded and also share
liability for unlawful conduct. The Charging Parties
argue that without an employer’s contractual agreement to an agency service fee provision, unions could
not demand a fee, and they note that including a
fee provision in a collective bargaining agreement
empowers a union to initiate a debt suit against
a non-member for non-payment. Consequently, the
Charging Parties contend that the Employers here
have violated Sections 2, 12, 10(a)(1), 10(a)(3) of the
Law, and the 1st and 14th Amendments to the U.S.
Constitution.
I disagree. In Mary Hogan v. Labor Relations
Commission, 430 Mass. 611 (2000), a decision that
issued after the Hudson decision, the SJC addressed
the question of whether the employer violated G.L.
c.150E by proposing to suspend an employee for
nonpayment of a fee that the union unlawfully
sought to collect. Mary Hogan specifically cited the
Hudson reference to joint employer/union liability,
yet the SJC decided that an employer does not violate
G.L. c.150E by following the agency service fee
provisions of its collective bargaining agreement.
Hogan v. LRC, 430 Mass at 615. In Town of West

13a
Springfield, 21 MLC at 1222, the CERB similarly and
expressly rejected the Charging Parties’ argument
that Hudson’s “government and union” language
makes public employers liable for a union’s unlawful
agency service fee collection procedures. Therefore,
even if I found probable cause to believe that the
Unions violated the Law by the fees they demanded
for the 2013-2014 school year, I would dismiss the
allegations against the University and the HSC.
Further, the charging parties in Hogan and West
Springfield alleged, like the Charging Parties here,
that the Employers’ actions violated Sections 10(a)(3)
and 10(a)(1) of the Law. But even if those decisions
were not controlling, the Charging Parties did not
provide evidence here to establish that the Employers’ involvement in the agency service fee demand
was specifically motivated by a desire to penalize or
discourage the Charging Parties from engaging in
protected, concerted activity. The HSC presented evidence that there was no nexus between Curran and
the new agency service fee provision in its 2012-2015
collective bargaining agreement, and that the service
fee provision was part of a package of proposals that
the HSC accepted to conclude the contract. Thus, the
Charging Parties have not established a prima facie
case of unlawful discrimination. See generally, Trustees of Forbes Library v. Labor Relations Commission,
384 Mass. 559 (1981).
2. Specific Allegations against the Unions
A. Exclusive Representation
The Charging Parties challenge the concept of
exclusive representation as a burden on their 1st
Amendment right of association, and argue that they
should not be encumbered by the collective bargain-

14a
ing agreement or otherwise prohibited from negotiating terms and conditions of employment unilaterally
and individually with their employers. However,
Section 5 of the Law expressly gives unions the power
of exclusive representation, which the SJC has characterized as a “basic building block of labor law policy
under G.L. c.150E.” Service Employees International
Union, AFL-CIO, Local 509 vs. Labor Relations
Commission, 431 Mass. 710, 715 (2000). Consequently, I dismiss this allegation.11
B. Compulsory Agency Service Fees
The Political Nature of Public Sector Collective
Bargaining
The Charging Parties argue that Section 12 of the
Law is unconstitutional under the 1st Amendment
because it requires the Charging Parties to pay
compulsory union fees as a condition of employment
even though they have decided not to join or financially support the union. They contend that forced
payments severely impinge on their 1st Amendment
rights because the Unions’ chargeable expenses concern matters of great public importance due to the

11

Also, Section 5 of the Law allows employees to present
disputes over contractual terms and conditions of employment
to the employer and have such disputes heard without union
intervention, provided that the union receives the opportunity to
be present at such conferences, and that any adjustment made
is not inconsistent with the collective bargaining agreement
between the employer and the union. See Avon School
Committee, 7 MLC 2106, MUP-3864 (May 6, 1981). Consequently, the statutory scheme of exclusive representation does
not prohibit all direct communication between individual
employees and the employer regarding terms and conditions of
employment.

15a
inherently political character of collective bargaining
in the public sector.
I summarily dismiss this allegation because the
SJC recognizes that the statutory agency service fee
requirement burdens fee payers’ 1st amendment
rights, yet still requires fee payers to pay their
fair share of certain political expenses. James J.
Belhumeur et. al. v. Labor Relations Commission, 432
Mass. at 469, 472 (funds used to reimburse the local
union for expenses incurred in connection with a local
Proposition 2 1/2 override campaign were chargeable
because the union sought to obtain the public money
necessary to fund the teachers’ collective bargaining
agreement; overhead expenses such as rent and
accounting fees pose no additional burden on the nonmember’s 1st Amendment rights other than that
imposed by the agency shop itself.) Nevertheless, “it
is well settled that public employees who are not
union members may be required, as a condition of
their employment, to pay an agency fee to their
collective bargaining representative to support the
costs of the bargaining process, contract administration, and grievance adjustment.” Id. Because the SJC
acknowledges that there are political overtones to
public sector collective bargaining that are properly
reflected in certain chargeable expenses, there is no
probable cause to believe that the Unions violated the
Law in the manner alleged, and I dismiss this
allegation.
Permissible Use of the Opt-out System
The Charging Parties next argue that Section 12 is
unconstitutional on its face because it requires nonmembers to pay an agency fee unless the employee
affirmatively and annually objects. At the investigation, the Charging Parties characterized this as an

16a
“opt-out” system, because the employees must take
affirmative action to avoid paying monies that
support the Unions’ political activities.12
In Knox et. al. v. Service Employees International
Union, Local 1000, 567 U.S. 132 S. Ct. 2277, 2291
(2012), the U.S. Supreme Court noted that its prior
decisions had permitted the use of an opt-out system
for the collection of fees to cover non-chargeable
expenses. In School Committee of Greenfield v.
Greenfield Education Association, 385 Mass. 70, 85
(1981), the SJC stated that “[w]e construe Section 12
to give the dissenting employee the option of bringing
a prohibited practice complaint before the [CERB] if
the employee wishes to challenge the fee amount.”
Because these cases uphold the practice of requiring
non-members to take affirmative action to avoid
payment of non-chargeable expenses, there is no
probable cause to believe that the Unions violated the
Law by requiring that they do so here.13
12

The Charging Parties characterize the existing agency
service procedure as an opt-out system because non-union
members must pay the fee demanded unless they file a charge
to challenge the fee and any non-chargeable expenses that they
believe it contains. The Charging Parties contend that under an
opt-in system, they would not be required to pay anything or
challenge anything unless the Unions first establish at the DLR
that the fee does not include any non-chargeable expenses. At
the investigation, the Unions questioned the characterization of
the current procedure as an opt-out system. However, there is
no dispute that a non-member is obligated to pay the amount of
the fee unless the fee payer challenges the fee at the DLR.
Consequently, I assume for purposes of this probable cause
dismissal that the existing procedure is what the Charging
Parties characterize as an “opt-out” system.
13

My conclusion that the Law permits the use of an opt-out
system renders any consideration of the Balz affidavit
unnecessary. Consequently, I have not relied on any facts or

17a
Nor did the Union violate the Law by settling prior
agency service fee cases with the Charging Parties
for less than the fee initially demanded. The Charging Parties argue that this practice requires them
to not only object to the fee demanded, but initiate
litigation to procure the lowest possible payment.
Questions of timeliness aside, there is no probable
cause to believe that this process or result is
unlawful. An employee who objects to the amount of
the fee must voice that objection by filing a prohibited
practice charge with the DLR; it is the minimal
burden necessary to signal their complaint. There
is nothing unlawful about offering and accepting
a lesser amount to compromise claims and avoid
litigation and thereby ensure that disputed fees are
not tied up any longer than necessary in escrow.
The Complex Nature of Agency Service Fee Litigation
The Charging Parties next argue that the agency
fee demand is a prohibited practice under Sections 2,
12, and 10(b)(1) of the Law and is unconstitutional
under the 1st and 14th Amendments because it
requires public employees who oppose joining or
financially supporting the union to pay the amount of
fees demanded unless the employee engages in
expensive and protracted litigation to challenge it.
In Belhumeur, 432 Mass. at 463, the SJC noted
that the CERB had issued its initial decision nearly
eight years after the fee payers in that case had filed
their prohibited practice charges. The SJC issued its
decision three years after the CERB decision, noting
that the litigation required the CERB to receive and
opinions that it contains and have given it no weight. For the
same reason, I have not considered the counter affidavits that
the Unions submitted in response.

18a
examine a “great deal” of evidence: approximately
1,400 documents from the Charging Parties alone. Id.
at 464. I take administrative notice of the fact that
the parties subsequently sparred over compliance
issues for an extended period of time before the case
was finally concluded and payments were released
from escrow in or about 2002. 14 However, the
Belhumeur Court ultimately found that the eight
year time span from charge to CERB decision was a
“reasonably prompt” decision, and did not find that
the complexity of the litigation rendered the fees
unconstitutional. Id. at 463. The Charging Parties
have cited no case, and I know of none, that holds
that the time and expense of litigation to challenge
particular conduct renders the conduct unlawful
under G.L. c.150E.15 Consequently, I find that the
14

The SJC’s commentary as well as the DLR’s own records
adequately demonstrates the complexity of the Belhumeur case;
consequently, I need not consider the facts and opinions
expressed in the Dixon affidavit regarding that case. I also need
not and have not relied on the facts and opinions expressed
regarding the U. S. Supreme Court cases cited. The complexity
of an agency service case largely depends on the issues raised,
i.e. the procedures surrounding ratification of a contract with a
service fee provision, the information provided with the demand,
the expenses that a union seeks to charge, as well as those that
a fee payer decides to challenge, and not every case requires or
involves agency or judicial resolution. Consequently, I have not
relied on any facts or opinions in the Dixon affidavit and have
given it no weight. For the same reason, I have not considered
the counter affidavits that the Unions submitted in response.
15

Melcuk states that in 2013, the PSU demanded service fees
for four years at one time, and he asserts that this practice
makes service fee payment unconstitutionally burdensome. I
decline to consider the lawfulness of the earlier 2013 demand
because challenges to it are untimely. See DLR Rule 17.06(2),
456 CMR 17.06(2).

19a
administrative procedures necessary for challenging
a service fee are not unlawful.
The Union’s Membership Rules
Finally, the Charging Parties argue that Section 12
is unconstitutional as applied under the 1st and 14th
Amendments because it requires the Charging Parties to pay fees to the Unions for collective bargaining
and contract administration even though they cannot
participate in Union activities such as having a voice
or a vote on selecting bargaining representatives,
contract proposals or bargaining strategy that influences their terms and conditions of employment.16
Because the DLR only adjudicates alleged violations
of G.L. c.150E and not constitutional claims, I consider whether the Union’s practice of excluding the
Charging Parties from bargaining teams, or meetings
that address contract proposals or bargaining strategy violates Section 10(b)(1) of the Law.
Generally, the CERB will not interfere with union
rules or actions that are within the legitimate domain
of internal union affairs. National Association of
Government Employees, 13 MLC 1525, 1526, SUPL2343, 2344, 2345, 2346 and 2347 (March 12, 1987);
Bertram Switzer v. Labor Relations Commission, 36
16

The PSU and the HTA presented evidence that they
distribute surveys to all bargaining unit members, including
non-union members, prior to successor collective bargaining
negotiations. The PSU also holds bargaining status update
meetings for bargaining unit members, and those meetings are
open to non-members. However, even if Curran and Melcuk
could have communicated their views by returning the survey
form, or if Melcuk had attended a bargaining status update
meeting, they still could not have participated on the team
that made strategic decisions during the give and take of
negotiations.

20a
Mass. App. Ct. 565, 568 (1994). However, a union’s
freedom to regulate its internal affairs must give way
to certain overriding interests implicit in the Law.
NAGE, 13 MLC at 1526. The CERB has found such
an overriding statutory policy in: testimony on behalf
of an employer at a DLR proceeding, Brockton
Education Association, 12 MLC 1497, MUPL-2740,
2777, 2778 (January 7, 1986); the CERB’s role in
determining appropriate bargaining units, Johnson
and McNulty, 8 MLC 1993, MUPL-2049, 2050 (March
23, 1982), aff’d sub nom. Boston Police Patrolmen’s
Association v. Labor Relations Commission, 16 Mass.
App. Ct. 953 (1983); and prohibiting strikes, Luther
E. Allen, Jr., 8 MLC 1518, 1524, SUPL-2024, 2025
(November 13, 1981). The legitimacy of a union’s
action turns on the relative weight to accord the
various issues at state. NAGE, 13 MLC at 1527.
Here, the MTA’s membership rules may interfere
with the Charging Parties’ right not to join the
Unions because those rules prohibit non-members
from participating on the Unions’ bargaining teams
and thereby having a voice in determining their
terms and conditions of employment. The Unions
have an interest in managing their internal affairs,
including restricting the roles and positions available
to non-members. See N.L.R.B. v. Financial Institution Employees of America, Local 1182, 475 U.S. 192,
205 (1986) (union members may properly control the
shape and direction of their organization, and nonmember employees have no voice in the affairs of the
union); see also, Southern Worcester County Regional
Vocational School District vs. Labor Relations Commission, 377 Mass. 897, 904 (1979) (selection of
the union negotiating team was an internal union
matter.) Thus, the MTA’s rules prohibiting nonmembers from joining its bargaining team are within

21a
the legitimate domain of internal union affairs.
Although an employee’s right to refrain from joining
the union free from interference, restraint or coercion
is an important policy consideration under the Law,
it does not override the Unions’ interests in
maintaining this membership rule.
The Union interests that its membership rules seek
to protect is selecting the team that plays a pivotal
role in the bargaining process by assembling proposals; determining priorities and strategies; and
accepting or rejecting individual proposals and tentative agreements, subject to ratification by the membership. To prioritize the Charging Parties’ interests
over the Unions’ interests would effectively require
the Unions to cede the discretionary, decision-making
power of the committee that governs their primary
representational role to employees who either oppose
the Unions or decline to support them financially.
The Law does not compel this result.
In NAGE, supra, the CERB balanced the charging
parties’ right to file a decertification petition against
the union’s interest in promulgating rules to preserve
its status as the exclusive representative, and held
that the union could lawfully exclude employees who
had filed a decertification petition from membership.
Though the Charging Parties here have not filed a
decertification petition, their perspectives are comparable to the charging parties who opposed the
union in NAGE. Conner believes that Union representation is not in his best interests and rhetorically
questions why he would need or want a labor union
to represent him. Branch states that he and the MSP
have dissimilar views on political causes, political
candidates, approaches to compensation, and rules
for work, promotion and tenure. Melcuk has philo-

22a
sophical, political, emotional, ethical, and psychological objections to labor unions. Curran has similar
concerns, and has charged the HTA with breaching
its duty to represent her fairly because of her nonmembership. Here as in NAGE, the Unions’ interests
in establishing membership rules governing the
composition of the committee that determines the
parameters, strategic direction, and results of bargaining outweighs the interests of non-members. See
generally, Daniel A. George vs. Local Union No. 639,
International Brotherhood of Teamsters, Chauffeurs,
Warehousemen & Helpers of America, AFL-CIO, 134
L.R.R.M. 3241(1990) aff’d in part and rev’d in part on
other grounds, 100 F. 3d 1008 (D.C. Cir.1996) (union
did not breach duty of fair representation by failing
to appoint a self-proclaimed dissident to its negotiating committee); see also, Minnesota State Board for
Community Colleges et. Al. v. Leon Knight et. al. v.
Minnesota Community College Faculty Association
et. al., 465 U. S. 271, 289 (1984) (union could lawfully
refuse to appoint non-members to “meet and confer”
committees to discuss non-mandatory subjects of bargaining with the employer). Section 2 of the Law
allows the Charging Parties to decline Union membership, but it does not simultaneously entitle them
to assume a leadership role in the Union.
Finally, I note that the Charging Parties are not
shut out of the process altogether since they can vote
on whether or not to ratify the collective bargaining
agreement that a union’s bargaining team negotiates.
See DLR Rule 17.03(1), 456 CMR 17.03(1). Consequently, their involvement in determining their terms
and conditions of employment is no more limited
than that of any union member who is not on the
bargaining team.

23a
Therefore, the Charging Parties’ interests in declining Union membership do not prevail over the
Unions’ interests in setting membership rules restricting non-member participation on bargaining
teams. Accordingly, there is no probable cause to
believe that the MTA’s membership rule unlawfully
interferes with, restrains or coerces the Charging
Parties in the exercise of their rights under the Law.
Conclusion
For the reasons stated above, there is no probable
cause to believe that the Unions’ demands for an
agency service fee from the Charging Parties for
the 2013-2014 school year violated the Law. Nor is
there probable cause to believe that any action of
the Employers violated the Law. Accordingly, I
dismiss all of the allegations in the Charging Parties’
charges.
Very truly yours,
DEPARTMENT OF LABOR RELATIONS
/s/ Susan L. Atwater, Esq.
Susan L. Atwater, Esq.
Investigator

24a
APPEAL RIGHTS
The charging party may, within ten (10) days of
receipt of this order seek a review of the dismissal by
filing a request with the Commonwealth Employment
Relations Board, pursuant to Department Rule 456
CMR 15.04(3). The request shall contain a complete
statement setting forth the facts and reasons upon
which such request is based. The charging party shall
include a certificate of service indicating that it
has served a copy of its request for review on the
opposing party or its counsel. Within seven (7) days
of receipt of the charging party’s request for review,
the respondent may file a response to the charging
party’s request.

25a
APPENDIX B
THE COMMONWEALTH OF MASSACHUSETTS
DEPARTMENT OF LABOR RELATIONS
CHARLES F. HURLEY BUILDING
19 STANIFORD STREET
1ST FLOOR, BOSTON, MA 02114
EMAIL: EFILE.DLR@STATE.MA.US
TELEPHONE: (617) 626-7132
FAX: (617) 626-7157
www.mass.gov/dlr
[LOGO]
CHARLES D. BAKER
GOVERNOR
KARYN E. POLITO
LIEUTENANT GOVERNOR
ERICA F. CRYSTAL
DIRECTOR
COMMONWEALTH EMPLOYMENT
RELATIONS BOARD
MARJORIE F. WITTNER
CHAIR
ELIZABETH NEUMEIER
BOARD MEMBER
HARRIS FREEMAN
BOARD MEMBER
February 23, 2015
Bruce N. Cameron, Esq.
National Right to Work
Legal Defense Foundation
8001 Braddock Road, Suite 600
Springfield, VA 22160

26a
Ethan Mutschler, Esq.
Office of the General Counsel
University of Massachusetts
333 South Street, 4th Floor
Shrewsbury, MA 01545
Amy Laura Davidson, Esq.
Sandulli Grace PC
44 School Streets, Suite 1100
Boston, MA 02108
Rebecca L. Bryant, Esq.
Stoneman, Chandler & Miller
99 High Street
Boston, MA 02110
RE: ASF-14-3744, Massachusetts Society of Professors/
MTA/NEA, the University of Massachusetts and Ben
Branch and William Curtis Conner, Jr.
ASF-14-3919, Hanover Teachers Association/MTA/
NEA, Hanover School Committee and Deborah
Curran
ASF-14-3920, Professional Staff Union/MTA/NEA,
the University of Massachusetts, and Andre Melcuk
Dear Ms. Davidson, Mr. Cameron, Mr. Mutschler and
Ms Bryant:
The Commonwealth Employment Relations Board
(CERB) has reviewed the dismissal letter that a
Department of Labor Relations (DLR) Investigator
(Investigator) issued in the above-captioned matters
on November 18, 2014. After reviewing the investigation record, the dismissal and the Charging Parties’
arguments on review, the CERB affirms the dismissal in its entirety.

27a
Background
The three charges set forth above were consolidated for dismissal and review. 1 Although each
charge was brought by different charging parties
(Charging Parties)2 against different unions (Unions)3
and employers, 4 the charges raise identical allegations and arguments, i.e., that the agency service
fee demands the Union made violate Sections 2, 12,
and 10(b)(1), of M.G. L. c. 150E (the Law) and the
U.S. Constitution. The charges also allege that their
respective employers violated Sections 2, 12, 10(a)(1)
and 10(a)(3) of the Law and the U.S. Constitution
by entering into collective bargaining agreements
(CBAs) that contain agency service fee provisions.
The Charging Parties do not allege, however, that the
specific 2013-2014 demands that the Unions made
were excessive or deficient under Chapter 150E and
its regulations. See, generally, Section 12 of the Law;
456 CMR 17.00, et. seq. Nor are any of the Charging
Parties facing discipline in connection with an agency
service fee demand.
1

The November 18, 2014 dismissal letter sets forth the exact
dates on which the various charges were filed or amended.
2

Ben Branch (Branch) and William Conner (Conner), who are
both professors at the University of Massachusetts (University)
and represented by the Massachusetts Society of Professors/
MTA/NEA (MSP); Deborah Curran (Curran), a teacher employed by the Hanover School Committee (School Committee)
and represented by the Hanover Teachers Association/MTA/
NEA (HTA); and Andre Melcuk, who is employed by the University and represented by the Professional Staff Union/MTA/NEA
(PSU).
3
4

The MSP, HTA and PSU.

The University and the School Committee (collectively, the
Respondents).

28a
The same Investigator investigated all three
charges. She conducted an in-person investigation of
ASF-14-3744 (Branch/Conner charge) on August 21,
2014, and ASF-14-3920 (Melcuk charge) and ASF-143919 (Curran charge) on October 22, 2014. She issued
the dismissal letter addressing all three charges on
November 18, 2014. The Charging Parties filed a
single appeal and supporting supplementary statement on November 25, 2014 pursuant to DLR Rule
456 15.04(3). 5 After requesting and receiving an
extension of time in which to reply to the appeal,
the Unions filed an opposition to the request for
reconsideration on December 12, 2014. On the same
day, they filed a motion for the CERB to consider
affidavits and portions of affidavits that the Investigator did not consider for reasons described below.
The Charging Parties filed a motion to strike the
Unions’ motion on December 16, 2014 and the Unions
filed an opposition to the motion to strike on
December 18, 2014. The Respondent Employers did
not file responses to any of post-dismissal pleadings
filed by the Unions or the Charging Parties.
Before turning to the merits of the appeal, the
CERB addresses the evidentiary issues raised by the
Unions and the Charging Parties.
5

DLR Rule 15.04 (3) states in pertinent part:
If, after a charge has been filed the [DLR] declines to
issue a complaint, it shall so notify the parties in
writing by a brief statement of the procedural or other
ground for its determination. The charging party
may obtain a review of such declination to issue
a complaint by filing a request therefor with the
[CERB] within ten days from the date of receipt of
notice of such refusal. Within seven days of service
of the request for review, any other party to the
proceeding may file a response with the CERB. . . .

29a
Unions’ Motion to Consider Affidavits
The Unions ask the CERB to include in the investigatory record and consider the affidavits it submitted from HTA President Stephen Lovell (Lovell),
PSU Consultant Maura Sweeney (Sweeney), MSP
Consultant Michele Gallagher (Gallagher) and MTA
General Counsel Susan Lee Weissinger (Weissinger).
The Investigator accepted certain portions of the
Gallagher and Weissinger affidavits and excluded
others, but declined to accept the Lovell and Sweeney
affidavits at all. For the reasons set forth below, the
CERB upholds the Investigators’ rulings on the
affidavits in question.
Background
During the in-person investigation of the Branch/
Conner charge on August 21, 2014, the Charging
Parties submitted affidavits from Branch and
Conner, as well as two individuals who are not
charging parties, economist Dr. John Balz (Balz) and
Emily Pitts Dixon (Dixon).6 The Investigator accepted
6

As described in the Ruling on the Motion to Strike, Balz’s
affidavit contains his “professional” opinion that the default “opt
out” choice structures at issue in this case affects agency fee
payers’ conduct such that “an unknown number of employees
are giving up their legal interests and political money that they
would not otherwise give.”
Dixon works for the National Right to Work Legal Foundation (Foundation), which represents the Charging Parties in this
case. The Foundation also represented the charging parties in
Springfield Educ. Association, MTA/NEA, et. al. and James J.
Belhumeur et. al, 23 MLC 233, AFS-2143 et. seq. (April 23, 1997)
aff’d in part, rev’d in part, sub. nom., Belhumeur v. Labor
Relations Commission, 432 Mass. 458 (2000) (Belhumeur).
Belhumeur was a challenge to an agency service fee imposed by
the MTA and its local affiliate that, as the SJC described,
involved “a large number of factual and legal issues involving

30a
the affidavits over the objection of the MSP and the
University,7 but allowed them time to file a response.
The MSP filed a motion to strike the Charging
Parties’ affidavits on September 23, 2014. Branch
and Conner filed a response. The Investigator issued
a ruling denying the motion to strike on October 16,
2014 and the MSP did not ask for reconsideration or
review.
The Investigator separately notified the parties
that she was leaving the record open until November
14, 2014 for the Union to provide counter affidavits to
the Dixon and Balz affidavits. The Unions submitted
the Sweeney, Lovell, Gallagher and Weissinger affidavits on November 14, 2014. The Charging Parties
did not object to the submission of any of these
affidavits.
On November 17, 2014, the Investigator notified
the parties by email that she was allowing those
parts of the Weissinger and Gallagher affidavits
that pertained to the Dixon and Balz affidavits8 and
excluding the remainder of the affidavits.
The Investigator also notified the parties that she
was excluding the Lovell and Sweeney affidavits.
These affidavits relate to the charges filed by Curran
voluminous evidence.” Id. at 463-464. Dixon’s affidavit detailed
the number of attorney hours, support staff hours and expenses
incurred in various cases brought by the Foundation, including
Belhumeur. The Investigator expressly declined to rely on any of
the facts or opinions in the Dixon affidavit and, thus, gave it no
weight.
7

The Investigator made clear, however, that she gave no
weight to the Balz affidavit because she did not consider it to be
outcome determinative.
8

The Investigator listed the numbered paragraphs she was
accepting into the record.

31a
and Melcuk. The Investigator stated and the Unions
do not dispute that Curran and Melcuk had submitted affidavits “well before” the October 22, 2014 inperson investigation into their charges. Because both
Lovell and Sweeney were present at the in-person
investigation, the Investigator reasoned that Lovell
and Sweeney could have provided the information
contained in their affidavits at the investigation. The
email further indicated that the record was now
closed. The Investigator issued the dismissal letter
the next day.
The Unions request that the CERB consider all the
evidence presented to the Investigator. They specifically assert that the Charging Parties’ stated goal is
to exhaust their administrative remedies and have
their matters reviewed in a federal appeals court.
The Unions therefore argue that the record should be
as complete as possible for this review. The Unions
further argue that it was unfair or improper for the
Investigator to:
1) Deny their motion to strike the Charging
Parties’ affidavits but exclude the Unions’
affidavits, to which no party has objected;
2) Deny Lovell and Sweeney’s affidavits on
grounds that they were present at the inperson investigation, but accept affidavits
from parties who were also present at the
investigation, i.e., Curran, Melcuk, Branch
and Conner;
3) Exclude portions of Gallagher and Weissinger’s affidavits. The Unions claim that their
affidavits “refute many of the allegations”
submitted by the Charging Parties and there-

32a
fore the appellate body should have an
opportunity to review all the evidence.
In response, the Charging Parties claim that the
Unions’ motion is untimely because it was not filed
within ten days of the Investigator’s dismissal as
required by DLR rules.9 The Unions reply that they
did not file an appeal from the dismissal because the
Investigator dismissed all of the Charging Parties’
allegations and there was, therefore, nothing for
them to appeal.
Ruling
Preliminarily, the CERB agrees with the Unions
that their motion is not untimely but rather was
appropriately raised after the Charging Parties filed
their request for review. On the merits, however, the
CERB has reviewed the Investigator’s rulings and
finds no error.
The DLR has established procedures that govern
the conduct of in-person investigations (Investigation
Procedures). 10 Part B.1 of the Investigation Procedures states that “the purpose of the In-Person
investigation is to determine whether or not probable
cause exists to issue a Complaint.” Part B. 5 states
9

The Charging Parties mistakenly cite the operative rules
as 456 CMR 13.15 (1) and (3). However, these rules relate
to appeals of full hearing officer decisions, not pre-complaint
dismissals of charges for lack of probable cause. As set forth in
n. 5, and in the appeals language at the bottom of the dismissal
letter, the rule governing appeals of an investigator’s refusal to
issue a complaint is Rule 15.04 (3). In both situations, however,
the aggrieved party has ten days in which to file an appeal with
the CERB.
10

Available at: http://www.mass.gov/Iwd/labor-relations/proc
edures/investigation/ (last accessed on February 20, 2015).

33a
that the investigator expects the parties at an
investigation “to appear accompanied by individuals
with first-hand knowledge of the facts and circumstances related to the charge.” Part C.1, “Documentary Evidence,” states, in part, that “parties are
NOT REQUIRED to provide sworn affidavits from
witnesses with personal knowledge of the facts
alleged in the initial charge.” (Emphasis in original).
Part B.6 states that parties “may submit relevant
documents for consideration by the Investigator” and
that parties who do so “should do so well in advance
of the In-Person Investigation.” Part B.6 finally
states that, “[a]bsent good cause, the Investigator will
not accept or consider additional submissions after
she or he has declared the Investigation is closed.”
Here, when the Charging Parties submitted the
Balz and Dixon affidavits for the first time at the
Branch/Conner investigation, the Investigator reasonably allowed the Unions time to respond to them.
The Unions responded with a motion to strike.
Although the Investigator denied the motion, she
then reasonably, if not generously, left the record
open for another four weeks to allow the Unions time
to file their responsive affidavits. Upon receiving
them, and consistent with the grounds on which she
left the record open, the Investigator allowed into the
record only those portions that she found pertained
to information in the Balz and Dixon affidavits and
excluded the rest. Although the Unions claim,
generally, that the excluded portions refute “many
allegations” made by the Charging Parties, they do
not contend that the excluded portions pertain
specifically to the Balz and Dixon affidavits. Under
these circumstances, the CERB finds no basis to
overturn the Investigator’s decision to exclude those
portions of the affidavits that did not comport with

34a
her instructions. The possibility that there will be
judicial review of the dismissal decision exists in
every matter that comes before the DLR and the
CERB. See c. 150E, § 11(f) (“Any party aggrieved by a
final order of the board may institute proceedings for
judicial review in the appeals court within 30 days
after receipt of the order.”). Therefore, the Unions’
general assertion that the Gallagher and Weissinger
affidavits contain additional information that should
be before the appellate body does not constitute good
cause to allow parties to submit affidavits that exceed
the express purpose for which the record was left
open.
Lovell and Sweeney affidavits
Similar considerations inform our denial of the
Unions’ motion to admit the Lovell and Sweeney
affidavits. The DLR’s procedures make clear that
parties are expected to make all of their arguments
and provide all relevant evidence before or at the inperson investigation. Here, where the Charging
Parties submitted the Melcuk and Curran affidavits
before the in-person investigation, the Investigator
did not err by excluding the Unions’ counter affidavits that were filed months later and contained facts
that could have been provided through live witnesses
at the in-person investigation.
Finally, to the extent the Unions argue that the
Investigator unfairly accepted the Charging Parties’
affidavits but improperly excluded theirs, the CERB
finds generally that the Investigator’s thoughtful and
reasoned basis for all of her rulings dispel any claims
of unfairness. Further, the Investigator also rejected
two affidavits that the Charging Parties submitted
from Dr. Michael Podgursky (Podgursky) and Dr.
George Nerren (Nerren). As explained below, the

35a
CERB rejects the Charging Parties’ assertion that
this was improper.
Exclusion of Podgursky and Nerren Affidavits
The Charging Parties sought to submit these affidavits in connection with the Curran and Melcuk
charges. As set forth in footnote 3 of the dismissal
letter, the Investigator did not accept the affidavits
because she concluded that neither one contained any
information concerning agency service fee payment,
issues or procedures in Massachusetts. She also
rejected the Charging Parties’ subsequent offers of
proof and did not consider either the Unions’ motion
to exclude the affidavits or the Charging Parties’
reply to that motion.11
The Charging Parties claim the Investigator’s
ruling was improper and argue that the information
contained in the affidavits is relevant to their
argument that avoiding the problem of free riders is
no longer a valid justification for agency service fees.
As the Investigator noted, however, neither affidavit
addressed whether the respondents’ actions violated
specific provisions of the Law. Because the Investigator appropriately limited her investigation to that
issue, and not to whether agency service fee demands
violated the Charging Parties’ constitutional rights,
see Town of W. Springfield, 21 MLC 1216, 1222-1223,

11

Although the Charging Parties do not specifically appeal
from the Investigator’s refusal to consider their offers of proof,
the CERB agrees with the Investigator that she was not required to do so. In-person investigations are informal, nonadjudicatory proceedings. See Investigation Procedures, Part
B.4, (“The In-Person Investigation is an informal conference....”);
Educational Association of Worcester/MTA/NEA, 14 MLC 1238,
1240, MUPL-3063-71/MUPL-3104 (October 20, 1987).

36a
MUP-7465 (August 19, 1994), the Charging Parties’
arguments provide no basis to overturn this ruling.
Request for Reconsideration
Challenge to Facts
The Charging Parties challenged one of the Investigator’s factual conclusions. During the in-person
investigation, the Charging Parties argued that the
Unions’ exclusion of non-members from participation
in certain Union activities was unconstitutional
under the First and Fourteenth amendments because
it conditioned non-members having a voice in their
terms and conditions of employment on their having
to pay union dues to support speech with which they
disagree. The Investigator appropriately treated this
argument as alleging a violation of Section 10(b)(1) of
the Law, see Town of West Springfield, 21 MLC at
1222-1223, and concluded, among other things, that
because non-members participate in ratification votes,
their involvement is “no more limited than that of
any union member who is not on the bargaining
team.” The Charging Parties acknowledge that a
different finding would not result in the issuance of a
complaint. They nevertheless challenge this statement, claiming that it ignores the fact that the
written explanation provided by the Unions to fee
payers explicitly sets forth a number of other activities from which non-members are excluded, i.e., vote
on election of officers, by law modifications, and
contract proposals or bargaining strategy. The written explanation further states, “[t]herefore apart
from the ratification of the contract, nonmembers
do not participate in the collective activities and
decision-making of the association that influences the
terms and conditions of employment.”

37a
Although the Investigator did not explicitly address
the influence that participating in certain union
activities other than contract ratification votes could
have on the Charging Parties’ terms and conditions
of employment, the CERB agrees that the Unions’
membership rules do not violate Section 10(b)(1) of
the Law. First, as the Investigator pointed out, nonmembers have the right to vote in contract ratification elections. Second, as the Unions point out, nonmembers may influence terms and conditions of
employment in other ways that are not dependent
on union membership, including, through having a
right to speak out in the workplace, file grievances
and seek union representation for workplace issues
related to terms and conditions of employment.
Indeed, the CERB has held that employees who
speak out and distribute literature urging employees
not to ratify a contract proposed by a union’s bargaining team are engaged in protected, concerted activity.
See Salem School Committee, 35 MLC 199, 214,
MUP-04-4008 (April 14, 2009) (citing City of
Lawrence, 15 MLC 1162, 1165, MUP-6086 (September
13, 1988)(the protection to be accorded this conduct is
determined by what the Law authorizes, rather than
by what the union membership or its leadership
authorizes)). An employer or union that interferes
with or retaliates against such employees violates the
Law. Id.
Merits
Except as described above, the Charging Parties
do not challenge the Investigator’s findings, nor do
they claim that the Investigator erroneously applied
relevant Chapter 150E precedent to the facts before
her. Indeed, for the most part, the Charging Parties’
arguments, all of which are grounded in their view of

38a
the First Amendment of the U.S. Constitution, do not
address the particular facts of this case and could
have been made in any jurisdiction that, like
Massachusetts, requires public employees who elect
not to join or maintain membership in the union that
represents them for purposes of collective bargaining
to pay an agency service fee to that union to support
the chargeable costs of the bargaining process,
contract administration and grievance adjustment,
provided certain pre-conditions are met. Belhumeur,
432 Mass. at 461-462 (citing Chicago Teachers Union
Local No. 1 v. Hudson, 475 U.S. 292, 306 (1986) (“a
union must implement certain procedures before it
may validly demand payment of an agency service
fee”)); See generally, M.G.L. c. 150E, §12; 456 CMR
17.05. Rather, the Charging Parties expressly state
in the introduction to their Supplementary Statement that the purpose of their appeal to the CERB is
to exhaust their administrative remedies so as to
preserve their constitutional arguments on appeal.
While acknowledging that the DLR is bound by
existing precedent and without the authority to
declare unconstitutional the statute it is mandated
to enforce, the Charging Parties’ stated goal is to
change the existing precedent. Thus, they say that it
is their full expectation that the CERB will affirm the
Investigator’s dismissal.
They are correct. The CERB has reviewed the
Investigator’s analysis of applicable Chapter 150E
precedent and finds no error. Further, although the
Charging Parties may wish to change existing law,
they do not contend that any of the recent Supreme
Court decisions to which they allude hold that
Section 12 of the Law or similar legislation is
unconstitutional insofar as it applies to the public
employees at issue here. See Harris v. Quinn, 134

39a
S.Ct. 2618, 2638 (2014) (Confining reach of Abood v.
Detroit Bd. of Education, 431 U.S. 209, 97 S. Ct. 1782
(1977) to “full-fledged state employees”). The CERB
therefore summarily affirms the dismissal of Charging Parties’ allegations for the reasons set forth in
the dismissal letter.
Conclusion
For these reasons and those stated in the
Investigator’s dismissal, the Board affirms the
Investigator’s dismissal of these charges.
Very truly yours,
COMMONWEALTH EMPLOYMENT
RELATIONS BOARD
/s/ Edward B. Srednicki
Edward B. Srednicki
Executive Secretary
APPEAL RIGHTS
Pursuant to the Supreme Judicial Court’s decision
in Quincy City Hospital v. Labor Relations Commission, 400 Mass. 745 (1987), this determination is a
final order within the meaning of M.G.L. c. 150E,
§ 11. Any party aggrieved by a final order of the
Board may institute proceedings for judicial review in
the Appeals Court pursuant to M.G.L. c.150E, §11.
To claim such an appeal, the appealing party must
file a Notice of Appeal with the Commonwealth
Employment Relations Board within thirty (30) days
of receipt of this decision. No Notice of Appeal need
be filed with the Appeals Court.

40a
APPENDIX C
NOTICE: All slip opinions and orders are subject to
formal revision and are superseded by the advance
sheets and bound volumes of the Official Reports.
If you find a typographical error or other formal
error, please notify the Reporter of Decisions,
Supreme Judicial Court, John Adams Courthouse,
1 Pemberton Square, Suite 2500, Boston, MA, 021081750; (617) 557-1030; SJCReporter@sjc.state.ma.us
SJC-12603
BEN BRANCH & others 1 vs. COMMONWEALTH
EMPLOYMENT RELATIONS BOARD & others.2
Suffolk. January 8, 2019. - April 9, 2019.
Present: Gants, C.J., Lenk, Gaziano, Lowy, Budd,
Cypher, & Kafker, JJ.
Constitutional Law, Union, Freedom of association.
Voluntary Association, Labor union. Labor, Union
agency fee, Fair representation by union, Public
employment. Moot Question. Commonwealth Employment Relations Board.
Appeal from a decision of the Commonwealth
Employment Relations Board.
The Supreme Judicial Court on its own initiative
transferred the case from the Appeals Court.
Bruce N. Cameron (Aaron B. Solem, of Minnesota,
also present) for the employees.
1

William Curtis Conner, Jr.; Deborah Curran; and Andre
Melcuk.
2

Massachusetts Society of Professors, MTA/NEA; Hanover
Teachers Association, MTA/NEA; and Professional Staff Union,
MTA/NEA, interveners.

41a
Timothy J. Casey, Assistant Attorney General
(T. Jane Gabriel also present) for Commonwealth
Employment Relations Board.
Jeffrey W. Burritt, of the District of Columbia, for the
interveners.
Mark G. Matuschak & Robert K. Smith, for Pioneer
Institute, Inc., were present but did not argue.
The following submitted briefs for amici curiae:
Deborah J. La Fetra, of California, & Brad P.
Bennion for Pacific Legal Foundation & others.
James A.W. Shaw &
Massachusetts AFL-CIO.

Donald

J.

Siegel

for

Charlotte Garden, of the District of Columbia, &
Brendan Sharkey for twenty-six labor law professors.
KAFKER, J. Massachusetts, like most States,
allows public sector employees in a designated
bargaining unit to elect a union by majority vote to
serve as their exclusive representative in collective
bargaining with their government employer. No
eligible employee is required to join a union, but
unions have historically collected mandatory “agency
fees” from nonmembers in the bargaining unit to
fund their operations as the exclusive representatives
of members and nonmembers alike. In the instant
case, four public employees raise challenges under
the First Amendment to the United States Constitution to both the exclusive representation and the
mandatory agency fee provisions of G. L. c. 150E.
The employees initially filed charges of prohibited
practice before the Department of Labor Relations
(DLR). A DLR investigator dismissed the case,
and the Commonwealth Employment Relations Board
(board), the three-member board within the DLR

42a
responsible for reviewing investigator decisions, upheld the dismissal. The employees appealed to the
Appeals Court, and while the case was on appeal, the
United States Supreme Court, in Janus v. American
Fed’n of State, County, & Mun. Employees, Council
31, 138 S. Ct. 2448, 2486 & n.28 (2018), held that
all State “agency-fee laws . . . violate the [First
Amendment]” by compelling nonmembers of public
sector unions to support their unions’ speech. The
employees argue that Janus requires us to overturn
the board’s decision dismissing their charges and
declare the agency fee provision of the collective
bargaining statute, G. L. c. 150E, § 12, unconstitutional on its face, and the exclusive representation
provisions of the statute, G. L. c. 150E, §§ 2, 4, 5, 12,
unconstitutional as applied to the employees.
We hold that the employees’ constitutional challenge to the agency fee provision is moot because the
unions voluntarily stopped collecting agency fees to
comply with Janus. It is not reasonably likely that
they will recommence collecting the fees, as the
Attorney General and the DLR have issued guidance
explaining that Janus categorically prohibits public
sector unions from collecting agency fees from members of a bargaining unit who do not belong to the
union and do not consent to pay the fees, and the
question of law is now settled. We further hold
that the employees’ First Amendment challenge to
the exclusive representation provisions of G. L. c.
150E is foreclosed by Supreme Court precedent and
thus lacks merit. We accordingly vacate as moot the
board’s decision with respect to the constitutionality
of the agency fee provisions of G. L. c. 150E and

43a
affirm the board’s decision with respect to the exclusive representation provisions of G. L. c. 150E.3
1. Facts and procedural history. The significant
facts in this case are not disputed. As mentioned, the
employees are public sector employees working in
designated bargaining units. At all relevant times,
however, they were not members of the unions that
served as their exclusive bargaining representatives.4
The collective bargaining agreements between the
employers and the unions nonetheless contained
provisions authorizing the unions to collect agency fees
from nonmembers.5 The unions also maintained rules
3

We acknowledge the amicus briefs submitted in support
of the employees by the Pacific Legal Foundation, National
Federation of Independent Business Small Business Legal
Center, and Mackinac Center for Public Policy; and by the
Pioneer Institute, Inc.; and the amicus briefs submitted in
support of the Commonwealth Employment Relations Board
and the interveners by twenty-six labor law professors and by
the Massachusetts AFL-CIO.
4

Two of the employees are faculty members represented
by the Massachusetts Society of Professors (MSP), one is a
university employee represented by the Professional Staff Union
(PSU), and one is a middle school teacher represented by the
Hanover Teachers Association (HTA). These three unions are
affiliates of the Massachusetts Teachers Association (MTA).
The MTA in turn is an affiliate of the National Education
Association. The agency fee requests at issue in this case were
imposed by the various unions, with the exception of the HTA.
5

General Laws c. 150E, § 12, provides, in relevant part, that
nonunion members may be required to pay “a service fee [(i.e.,
agency fee)] to the employee organization” when the “collective
bargaining agreement requiring its payment as a condition of
employment has been formally executed, pursuant to a vote of a
majority of all employees in such bargaining unit present and
voting.” Section 12 further provides that the amount of the
service fee shall be equal to membership dues, provided that the
employee organization has a procedure to provide a rebate for

44a
that nonmembers were “not entitled . . . to participate
in affiliate decision-making,” specifically to attend
union meetings (other than contract ratification meetings) or “vote on election of officers, bylaw modifications, contract proposals or bargaining strategy.”
In the spring of 2014, the unions requested that the
employees pay their annual agency fees for the 20132014 academic year. In response, the employees filed
complaints with the DLR alleging that these fee
requests constituted a prohibited practice on the part of
the unions and the employers.6
The employees alleged that the requirement that
they pay agency fees constituted a prohibited practice
under G. L. c. 150E, §§ 10 (a) (1), (3), (b) (1), and 12,
because “compulsory union fees . . . are unconstitutional under the First and Fourteenth Amendments
[to the United States Constitution].” 7 More specifipolitical, ideological, or other expenses “not germane to the
[organization’s] governance or duties as bargaining agent.”
Finally, § 12 provides that “[i]t shall be a prohibited labor
practice for an employee organization or its affiliates to
discriminate against an employee on the basis of the employee’s
membership, nonmembership or agency fee status in the
employee organization or its affiliates.”
6

One of the employees had earlier filed a charge challenging
the calculation of the amount of his agency fee. The employee
subsequently filed an amended charge that rescinded his earlier
allegation and raised a challenge to the validity of the agency
fee that was identical to that raised by the other three
employees.
7

Under G. L. c. 150E, § 10 (a) (1) and (3), it is a prohibited
practice for a public employer to “[i]nterfere, restrain, or coerce
any employee in the exercise of any right guaranteed under this
chapter” or to “[d]iscriminate in regard to hiring, tenure, or any
term or condition of employment to encourage or discourage
membership in any employee organization.” Under G. L.
c. 150E, § 10 (b) (1), it is a prohibited practice for a union to

45a
cally, the employees claimed that G. L. c. 150E, § 12,
the statutory provision that authorizes public sector
unions to collect agency fees, was unconstitutional
on its face.8 They also claimed that this statute was
unconstitutional as applied to them because it
required them to pay agency fees “even though they
are not entitled to attend union meetings or be
involved in any union activities such as having a voice
or a on bargaining representatives, contract proposals
or bargaining strategy.” Finally, they challenged
the constitutionality of the exclusive representation
provisions of G. L. c. 150E, § 5, for essentially the
same reasons.9
A DLR investigator took affidavits from the employees and the unions, and then issued a decision in
November 2014 dismissing the charges. 10 In her
“[i]nterfere, restrain, or coerce any employer or employee in the
exercise of any right guaranteed under this chapter.”
8

The employees claimed that the agency fee provision was
facially unconstitutional because it required them to (1) support
the unions’ political beliefs despite their opposition to those
beliefs; and (2) affirmatively object to challenge the amount
of the fee. They also claimed that the requirement that they
affirmatively object to the imposition of an agency fee was
unconstitutional as applied.
9

General Laws c. 150E, § 5, provides that the “exclusive
representative shall have the right to act for and negotiate
agreements covering all employees in the unit and shall be
responsible for representing the interests of all such employees
without discrimination and without regard to employee
organization membership.”
10

The employees submitted affidavits on their own behalf, as
well as from four experts. The unions moved to strike these
affidavits and, when this motion was denied, submitted counteraffidavits. The investigator admitted the employees’ affidavits
and those of two of the experts. She excluded some portions of
the unions’ affidavits and the employees’ other two expert

46a
decision, the investigator concluded that the DLR
did not have authority to address the employees’
constitutional arguments. Instead, she only considered whether the employers and the unions had
violated G. L. c. 150E. She concluded that G. L. c.
150E, § 5, expressly authorized the unions to serve as
the employees’ exclusive representatives and that
they were permitted to enforce membership rules
restricting service on negotiating committees to
union members. She further concluded that, under
controlling precedent of this court and the United
States Supreme Court, neither the employers nor the
unions engaged in a prohibited practice by requiring
nonmember employees to pay agency fees to a public
sector union pursuant to G. L. c. 150E, § 12.
The employees sought review of the investigator’s
dismissal of their charges by the board pursuant to
G. L. c. 150E, § 11. They conceded in their briefing
that “existing precedent” required the board to
uphold the dismissal of the unfair labor practice
charges but appealed in order “to exhaust administrative remedies” and preserve their constitutional
arguments for appellate review. In February 2015,
the board affirmed the dismissal in its entirety for
the reasons set forth in the investigator’s decision.
The employees then appealed from the board’s
decision to the Appeals Court. That court granted the
unions’ motion to intervene and stayed the case until
affidavits on the grounds that they were not relevant to agency
fee procedures in Massachusetts. We decline to disturb the
investigator’s evidentiary ruling with respect to the employees’
expert affidavits. See Maddocks v. Contributory Retirement
Appeal Bd., 369 Mass. 488, 498 (1976) (court will not overturn
agency’s discretionary exclusion of evidence absent “denial of
substantial justice”).

47a
the Supreme Court issued Janus in June 2018. We
then transferred the case to this court on our own
motion and ordered supplemental briefing.
2. Mootness. We first address the employees’ argument that Janus requires us to overturn the board’s
decision upholding the unions’ collection of agency
fees pursuant to the agency fee provision, G. L. c.
150E, § 12. The Supreme Court, in Janus, 138 S. Ct.
at 2486, held that “States and public sector unions
may no longer extract agency fees from nonconsenting
employees,” and the board and the unions accordingly
concede that “public employers and public-sector
unions can no longer collect agency fees from nonunion employees unless they affirmatively consent.” The
board argues that both the employers and unions
have voluntarily complied with Janus by no longer
permitting the nonconsensual collection of agency fees
from employees who are not in a union, and hence
that the portion of its decision dismissing the
employees’ constitutional challenges to the imposition
of agency fees and the manner of their collection
should be vacated and dismissed as moot.11 We agree
11

The intervener unions argue that we lack jurisdiction to
decide the employees’ constitutional challenges because the
employees brought them before an administrative agency rather
than through seeking a declaratory judgment in the Superior
Court. We disagree. The instant case did not just raise a direct
challenge to the constitutionality of the agency fee provision of
G. L. c. 150E, § 12. Instead, it required the Department of Labor
Relations (DLR) to apply multiple statutory requirements
consistent with its understanding of constitutional law and to
draw on its own expert knowledge of labor relations practices
and procedures in deciding the questions before it.
As explained by the DLR investigator, while the charges
presented facial challenges to the constitutionality of the agency
fee and exclusive representation provisions in G. L. c. 150E,
they also “raised allegations . . . that the service fees demanded

48a
violate specific provisions of [G. L. c. 150E], i.e. that prohibiting
non-members from joining a union negotiating team, while
simultaneously requiring service fees, violates [G. L. c. 150E,
§ 10 (b) (1),] by coercing employees in the exercise of their rights
to non-membership; and that the employers’ agreement to a
contractual service fee provision violated [§ 10 (a) (3)].” In
deciding these issues the DLR was required to “apply [§ 12] . . .
constitutionally, using decisions of the United States Supreme
Court to guide its construction of [G. L. c. 150E],” and to resolve
“factual issues that are appropriate for the agency’s consideration, i.e. the extent to which the unions allow or prohibit fee
payers from participating in the negotiations process.”
We conclude that the DLR correctly assumed jurisdiction
here for the reasons it stated. In the course of their adjudications, agencies must “decide questions of law, including, at
times, questions of constitutional law.” Temple Emanuel of
Newton v. Massachusetts Comm’n Against Discrimination, 463
Mass. 472, 483 (2012). “Although an agency cannot decide
an ultimate constitutional issue [regarding the legality of its
statute], the question remains whether such an issue must
nonetheless be brought before it to inform the agency’s
resolution of the statutory and regulatory questions it must
consider and to draw on its specialized expertise for necessary
fact finding.” Maher v. Justices of the Quincy Div. of the Dist.
Court Dep’t, 67 Mass. App. Ct. 612, 619 (2006). With the benefit
of an agency’s factual determinations, understanding of its
regulated industry, and statutory construction, a court can then
decide whether the agency’s determinations were made in
compliance with or “[i]n violation of constitutional provisions.”
G. L. c. 30A, § 14. See, e.g., Selectmen of Framingham v. Civil
Serv. Comm’n, 366 Mass. 547, 554 (1974) (emphasizing that
Civil Service Commission “will need to take up and consider the
factual matters underlying the issue of the constitutional
validity of the regulation since these matters are here intrinsic
to a decision as to ‘just cause’“ even though “the ultimately
controlling decision of a constitutional issue is for the courts”).
Although not directly argued below, the instant case also
depends on an interpretation of the duty of fair representation,
which involves the special expertise of the DLR. “As a matter
of promoting proper relationships between the courts and
administrative agencies, strong policies support the primary

49a
with the board, and thus vacate that portion of the
board’s decision as moot.
It is a “general rule that courts decide only actual
controversies . . . and normally do not decide moot
cases.” Boston Herald, Inc. v. Superior Court Dep’t
jurisdiction of the [DLR] over cases involving the duty of fair
representation.” Leahy v. Local 1526, Am. Fed’n of State,
County, & Mun. Employees, 399 Mass. 341, 349 (1987).
A different question would be presented if this case were
only presenting a challenge to the constitutionality of enabling
legislation. Cf. Doe, Sex Offender Registry Bd. No. 10800 v. Sex
Offender Registry Bd., 459 Mass. 603, 630-631 (2011) (court
without jurisdiction to hear constitutional challenge to agency’s
enabling statute and implementing regulations when first
brought on appeal from agency decision rather than in declaratory judgment action in court). If after Janus v. American Fed’n
of State, County, & Mun. Employees, Council 31, 138 S. Ct.
2448, 2486 (2018), had been decided, the employees had simply
brought a declaratory judgment action seeking a declaration
that G. L. c. 150E, § 12, was unconstitutional, such an action
should have been brought in the Superior Court. The multifaceted challenge here is different and requires administrative
review in the first instance. See Gurry v. Board of Pub.
Accountancy, 394 Mass. 118, 126 (1985) (“Except for jurisdictional claims based upon constitutional challenges to an
agency’s enabling legislation, litigants involved in adjudicatory
proceedings should raise all claims before the agency, including
those which are constitutionally based”). See, e.g., Seagram
Distillers Co. v. Alcoholic Beverages Control Comm’n, 401 Mass.
713, 724 (1988) (facial and as applied constitutional challenges
to statute “not raised before the commission and we therefore
decline to consider them here for the first time”). See also, e.g.,
McCormick v. Labor Relations Comm’n, 412 Mass. 164, 169-170
(1992) (relying on Seagram Distillers Co., supra, to conclude
that party raising First Amendment challenge to validity of
agency fee waived that challenge by not raising it before Labor
Relations Commission).
We thus conclude that the DLR correctly determined that it
had jurisdiction.

50a
of the Trial Court, 421 Mass. 502, 504 (1995).
“[L]itigation is considered moot when the party who
claimed to be aggrieved ceases to have a personal
stake in its outcome.” Bronstein v. Board of Registration in Optometry, 403 Mass. 621, 627 (1988). 12 A
moot case is one where a court can order “no further
effective relief.” Lawyers’ Comm. for Civ. Rights &
Economic Justice v. Court Adm’r of the Trial Court,
478 Mass. 1010, 1011 (2017).
Here, the unions presented affidavits13 demonstrating that they did not collect any agency fees from
the employees while their complaints were pending,
stopped collecting agency fees entirely in anticipation
of Janus, and no longer collected agency fees from
nonmembers once Janus was issued in order to comply
with the decision. 14 Furthermore, both the Attorney
12

“The mootness doctrine applies to judicial review of administrative decisions as well as to appellate review of lower court
decisions.” International Marathons, Inc. v. Attorney Gen., 392
Mass. 376, 380 (1984).
13

To determine whether a case has become moot while it is
on appeal, we may consider evidence introduced by the parties
in the form of affidavits. Doe v. Superintendent of Sch. of
Worcester, 421 Mass. 117, 123 (1995), citing Hubrite Informal
Frocks, Inc. v. Kramer, 297 Mass. 530, 532–533 (1937) (“Affidavits are the proper way to raise a question of mootness”).
14

To comply with the prohibition on the collection of agency
fees announced in Janus, 138 S. Ct. at 2486, the general counsel
of the MTA sent letters to its local affiliates on April 25 and May
2, 2018, instructing them to stop collecting agency fees
preemptively as of June 1, 2018, in the event that “the collection
of agency fees is declared unconstitutional.” Following the
issuance of Janus on June 27, 2018, the MTA informed its
affiliates that they may “no longer deduct agency fees from a
nonmember’s wages” and processed a “bulk cancellation” of
agency fees. Furthermore, the presidents of the affiliate unions
involved in this case (i.e., the MSP, PSU, and HTA) stated that,

51a
General and the DLR issued guidance explaining that
Janus prohibits public employers and public sector
unions from collecting agency fees from members of a
bargaining unit who do not belong to the union and do
not consent to pay the fees.15 And, as mentioned, the
unions and employers concede that they are bound by
Janus. In light of these significant steps by the unions
and the unequivocal legal guidance issued by the
relevant agencies, we are not persuaded by the
employees’ claim that there is “no reason to expect
any change” in the challenged conduct involving
agency fees.16 Nor is this the exceptional case where
on account of Janus, they no longer collect agency fees. Additionally, in November 2018, the MTA executive committee
approved the removal of any reference to “agency service fees”
from its bylaws.
15

See Department of Labor Relations, Question and Answer
Regarding Impacts of Janus v. American Federation of State,
County, and Municipal Employees, Council 31, https://www.
mass.gov/service-details/dlr-qa-re-janus-v-american-fed-of-statecty-muni-employees [https://perma.cc/XG43-Z9DW] (“The Janus
decision makes it unlawful for public sector employers or unions
to require that an employee who is not a voluntary dues paying
union member to pay an agency fee to a union as a condition of
obtaining employment or continued employment” and any
“agency shop arrangements contained in collective bargaining
agreements are invalidated”); Office of the Attorney General,
Attorney General Advisory: Affirming Labor Rights and
Obligations in Public Workplaces, https://www.mass.gov/files/
documents/2018/07/03/Attorney%20General%20Advisory%20-%
20Rights%20of%20Public%20Sector%20Employees%20%287-3%
29.pdf [https://perma.cc/74LPEVMF] (“Under Janus, public
employers may not deduct agency fees from a nonmember’s
wages, nor may a union collect agency fees from a nonmember,
without the employee’s affirmative consent”).
16

A defendant whose voluntary conduct renders a case moot
must satisfy a “heavy burden of showing that there is no
reasonable expectation that the wrong will be repeated; and a

52a
we exercise our discretion to decide a moot case.17
Because no agency fee demands are currently being
made on the employees, and because any such
defendant’s mere assurances on this point may well not be
sufficient.” Cantell v. Commissioner of Correction, 475 Mass.
745, 753 n.16 (2016), quoting Wolf v. Commissioner of Pub.
Welfare, 367 Mass. 293, 299 (1975). This burden may be met by
a policy change by an administrative agency or by other change
in conduct to comply with the law. See Bronstein v. Board of
Registration in Optometry, 403 Mass. 621, 626-627 (1988) (case
moot where administrative board agreed not to enforce order
that was no longer in compliance with amended statute);
Buchannan v. Superintendent of Mass. Correctional Inst. at
Concord, 9 Mass. App. Ct. 545, 548-550 (1980) (case moot where
bulletin issued by Department of Correction addressed challenged correctional practice and issuance of bulletin suggested
defendants did not “cease[] their allegedly wrongful conduct in
order to escape review”). See also Danielson v. Inslee, 345 F.
Supp. 3d 1336, 1339 (W.D. Wash. 2018) (post-Janus challenge to
mandatory agency fee law moot because it was “improbable that
the State will renege on a policy it has justified by legal
precedent”).
17

We have discretion to decide a moot case where the issue is
one of “significant public importance, and there appears to be
some uncertainty about it,” or “where the parties have fully
briefed and argued the issues of a case, and . . . the issues are
capable of repetition, yet evading review” (quotation and
citations omitted). Commonwealth v. McCulloch, 450 Mass. 483,
486 (2008). Here, there is no uncertainty that Janus forbids the
collection of agency fees from nonconsenting bargaining unit
members who are not in a union. See Ladley vs. Pennsylvania
State Educ. Ass’n, No. CI-14-08552, slip op. at 23 (Pa. Ct. Com.
Pl. Oct. 29, 2018) (declining to decide moot post-Janus agency
fee challenge on public interest grounds because no need for
court to create “guideposts for future conduct or action” [citation
omitted]). Nor is the issue one that is likely to evade review
should it arise again: the challenged issue “is one of law” that
would likely receive immediate judicial review and rebuke if a
union sought to impose an agency fee despite Janus. Ott v.
Boston Edison Co., 413 Mass. 680, 684 (1992).

53a
demands are not likely to recur, there is no “actual
controvers[y]” for the court to decide and no “effective
relief” for it to order. Murphy v. National Union Fire
Ins. Co., 438 Mass. 529, 533 (2003). See Lawyers’
Comm. for Civ. Rights & Economic Justice, 478 Mass.
at 1011. We therefore hold that the unions’ cessation
of agency fee collection to comply with Janus and the
issuance by the Attorney General and the DLR of
guidance categorically prohibiting their collection has
rendered moot the employees’ challenge to the agency
fee provisions of G. L. c. 150E.18
3. Constitutionality of exclusive representation.
The employees also challenge the constitutionality of
their unions’ exclusive representation of their employees in collective bargaining, claiming that exclusive
representation compels them to associate with the
unions in violation of the First Amendment. 19 We
18

This conclusion accords with those of other courts that have
dismissed challenges to the constitutionality of State agency fee
laws on mootness grounds following the issuance of Janus and
the corresponding cessation in the collection of agency fees by
public sector unions. See Danielson, 345 F. Supp. 3d at 13391340; Danielson v. American Fed’n of State, County, & Mun.
Employees, Council 28, AFL-CIO, 340 F. Supp. 3d 1083, 1084
(W.D. Wash. 2018); Lamberty vs. Connecticut State Police
Union, U.S. Dist. Ct., No. 3:15-cv-378 (D. Conn. Oct. 19, 2018);
Yohn vs. California Teachers’ Ass’n, U.S. Dist. Ct., No. SACV
17-202-JLS-DEM (C.D. Cal. Sept. 28, 2018); Ladley, supra.
19

The unions argue that the employees’ exclusive representation challenge is not properly before this court because the
employees failed to raise it below. Specifically, they point out
that the employees’ charges were addressed to G. L. c. 150E,
§ 12, the agency fee provision, and not to the exclusive representation provisions of G. L. c. 150E. Yet the investigator’s
decision addressed the employees’ “challenge [to] the concept of
exclusive representation as a burden on their [First] Amendment right of association.” The employees then appealed to

54a
conclude that, under controlling Supreme Court precedent, neither the exclusive representation provisions
of G. L. c. 150E nor the unions’ internal policies
and procedures barring nonmembers from various
collective bargaining activities violate the First
Amendment.
General Laws c. 150E, § 4, provides that “[p]ublic
employers may recognize an employee organization
designated by the majority of the employees in an
appropriate bargaining unit as the exclusive representative of all the employees in such unit for the
purpose of collective bargaining.” In turn, G. L. c.
150E, § 5, provides that the “exclusive representative
shall have the right to act for and negotiate agreements covering all employees in the unit and shall be
responsible for representing the interests of all such
employees without discrimination and without regard
to employee organization membership.” We have
explained that the “exclusive representation concept”
is “a basic building block of labor law policy under G.
L. c. 150E.” Service Employees Int’l Union, AFL-CIO,
Local 509 v. Labor Relations Comm’n, 431 Mass. 710,
714–715 (2000). The same is true under Federal labor
relations law.20
the board from the investigator’s conclusion that “[e]xclusive
representation, pursuant to G. L. c. 150E §§ 4 [and] 5, is
constitutional.” We thus conclude that the issue was sufficiently
raised below.
20

The National Labor Relations Act (NLRA) provides that
“[r]epresentatives designated or selected for the purposes of
collective bargaining by the majority of the employees in a unit
appropriate for such purposes, shall be the exclusive representatives of all the employees in such unit for the purposes of
collective bargaining in respect to rates of pay, wages, hours of
employment, or other conditions of employment.” 29 U.S.C.
§ 159(a). For cases discussing exclusive representation under

55a
Our analysis of exclusive representation is guided
by an uninterrupted line of decisions in which the
Supreme Court has affirmed its “long and consistent
adherence to the principle of exclusive representation
tempered by safeguards for the protection of minority
interests” provided by the duty of fair representation.
Emporium Capwell Co. v. Western Addition Community Org., 420 U.S. 50, 65 (1975). Exclusive representation, as the Supreme Court has explained, is
necessary to effectively and efficiently negotiate collective bargaining agreements and thus promote
peaceful and productive labor-management relations.
See, e.g., National Labor Relations Bd. v. AllisChalmers Mfg. Co., 388 U.S. 175, 180 (1967)
(“National labor policy has been built on the premise
that by pooling their economic strength and acting
through a labor organization freely chosen by the
majority, the employees of an appropriate unit have
the most effective means of bargaining for improvements in wages, hours, and working conditions. The
the NLRA, see, e.g., 14 Penn Plaza LLC v. Pyett, 556 U.S. 247,
270–271 (2009), quoting Emporium Capwell Co. v. Western
Addition Community Org., 420 U.S. 50, 62 (1975) (“In establishing a regime of majority rule, Congress sought to secure to all
members of the [bargaining] unit the benefits of their collective
strength and bargaining power, in full awareness that the
superior strength of some individuals or groups might be
subordinated to the interest of the majority”); Vaca v. Sipes, 386
U.S. 171, 191 (1967) (discussing importance of exclusive representation in grievance arbitration context); Steele v. Louisville
& Nashville R.R., 323 U.S. 192, 200-201 (1944) (describing
exclusive representation under NLRA); J.I. Case Co. v. National
Labor Relations Bd., 321 U.S. 332, 338-339 (1944) (under
NLRA, employer must bargain with exclusive representative,
rather than individually with employees, because “the majority
rules” and to allow individual negotiations would “prove . . .
disruptive of industrial peace).

56a
policy therefore extinguishes the individual employee’s power to order his own relations with his
employer and creates a power vested in the chosen
representative to act in the interests of all employees”). See also Carlson, The Origin and Future of
Exclusive Representation in American Labor Law,
30 Duq. L. Rev. 779, 780 (1992) (“Majority-rule based
exclusivity bolsters a union’s bargaining position,
legitimizes its complete control over employee bargaining within a unit and, even from the employer’s
perspective, simplifies the bargaining process. Collective bargaining on any other basis faces considerable
practical difficulties” [footnote omitted]).21

21

For discussions of the policy rationales for exclusive representation, see, e.g., Janus, 138 S. Ct. at 2465 (discussing how
exclusive representation serves “compelling state interest” in
“labor peace” [citation omitted]); Perry Educ. Ass’n v. Perry
Local Educators’ Ass’n, 460 U.S. 37, 38-39, 52 (1983) (rejecting
First Amendment challenge to term in collective bargaining
agreement restricting use of interschool mail system to
exclusive representative because “exclusion of the rival union
may reasonably be considered a means of insuring labor-peace
within the schools”); Vaca, 386 U.S. at 191 (explaining that
if individual employees could bypass collective bargaining
agreement with respect to grievance arbitration “the settlement
machinery provided by the contract would be substantially
undermined, thus destroying the employer’s confidence in the
union’s authority and returning the individual grievant to the
vagaries of independent and unsystematic negotiation”); Medo
Photo Supply Corp. v. National Labor Relations Bd., 321 U.S.
678, 685 (1944) (“orderly collective bargaining requires that
the employer be not permitted to go behind the designated
representatives, in order to bargain with the employees
themselves”). See also Matter of Houde Engineering Corp. &
United Auto. Workers Fed. Labor Union No. 18839, 1 N.L.R.B.
35, 40 (1934) (exclusive representation provision of Federal law
designed to stop employers from exploiting “differences within
the ranks” of employees); Carlson, The Origin and Future of

57a
In particular, our analysis of the constitutionality
of exclusive representation is informed by Knight
v. Minnesota Community College Faculty Ass’n, 460
U.S. 1048 (1983) (Knight I); Minnesota State Board
for Community Colleges v. Knight, 465 U.S. 271
(1984) (Knight II); and Janus itself. In the two Knight
decisions and Janus, the majority and the dissents
alike recognized and respected the importance of
exclusive representation in the collective bargaining
process, at least in the negotiation of the terms and
conditions of employment.
In Knight I, 460 U.S. at 1048, a case involving
faculty at State community colleges, the Supreme
Court summarily affirmed the portion of the lower
court’s decision concluding that it was constitutional
to limit collective bargaining sessions (known as
“meet and negotiate” sessions) regarding the terms
and conditions of employment to the faculty’s exclusive representative. See Knight II, 465 U.S. at 279
(“The Court’s summary affirmance . . . rejected the
constitutional attack on [the State statute’s] restriction to the exclusive representative of participation in
the ‘meet and negotiate’ process”). In summarily
affirming the lower court, it thus appeared noncontroversial to the Court to limit collective bargaining
regarding the terms and conditions of employment
to the exclusive representative and to recognize
the “constitutionality of exclusive representation
bargaining in the public sector.” Knight v. Minnesota
Community College Faculty Ass’n, 571 F. Supp. 1, 4
(D. Minn. 1982), aff’d in part, 460 U.S. 1048 (1983).
This decision is in line with earlier Supreme Court
Exclusive Representation in American Labor Law, 30 Duq. L.
Rev. 779, 814 (1992) (“Without exclusivity, employee factions
would inevitably make conflicting proposals and demands”).

58a
decisions that recognize and respect the need for an
exclusive bargaining representative. See Emporium
Capwell Co., 420 U.S. at 65. See also notes 20 and 21,
supra (citing cases).
In Knight II, 465 U.S. at 292, the Court extended
the right of exclusive representation to “meet and
confer” sessions with the employer regarding university governance and academic matters outside the
scope of the mandatory bargaining that took place in
the “meet and negotiate” sessions deemed constitutional in Knight I. Although Knight II, supra at 288,
presented a more difficult question than exclusive
representation in the collective bargaining context,
and one that divided the Court, the majority held that
the nonmembers’ “speech and associational rights . . .
[had] not been infringed” even by this type of
government-imposed exclusive representation. Specifically, the Court observed that exclusive representation was constitutional because the First Amendment creates no “government obligation to listen” to
particular voices on policy questions, and the State’s
right to designate the faculty union as the exclusive
representative for the “meet and confer” sessions (as
well as the “meet and negotiate” sessions) was within
its inherent right to “choose its advisers.” Id. at 288
& n. 10.
The Court further explained that such exclusive
representation did not impair the nonmember employees’ associational freedoms, as the nonmembers
were “not required to become members of the
[union].” Id. at 289. Although the nonmembers
“[might] well [have felt] some pressure to join the
exclusive representative” to gain a “voice” in the
“meet and confer” sessions, such pressure was “no
different from the pressure to join a majority party

59a
that persons in the minority always feel.” Id. at 289290. This sort of pressure, the Court explained, is
inherent both in majority rule, which is a guiding
principle of “our system of government,” and in the
collective bargaining process; as such, “it does not
create an unconstitutional inhibition on associational
freedom.” Id. at 290.
Janus, a challenge to the agency fee provision of a
State collective bargaining law, did not in any way
question the centrality of exclusive representation, at
least in the collective bargaining process. There, the
Court “noted” that exclusive representation provided
the union with the “exclusive right to speak for all
the employees in collective bargaining” and that the
employer was “required by state law to listen to and
bargain in good faith with only that union.” Janus,
138 S. Ct. at 2467. Indeed, the Court expressly
observed that it is “not disputed that the State may
require that a union serve as exclusive bargaining
agent for its employees,” and that, with the exception
of laws permitting mandatory agency fees, “States
can keep their labor-relations systems exactly as they
are.” Id. at 2478, 2485 n.27. See id. at 2489 (Kagan,
J., dissenting) (“The majority does not take issue with
the [concept of exclusive representation]”). And the
Court assumed that “labor peace,” defined as the
avoidance of “the conflict and disruption” that would
occur if employees were “represented by more than
one union,” was a “compelling state interest,” but
that mandatory agency fees were not “inextricably
linked” to such peace (citation omitted). Id. at 2465.
It was this “compelling state interest” that apparently justified the “significant impingement on asso-

60a
ciational freedoms that would not be tolerated in
other contexts.” Id. at 2478.22
22

This conclusion accords with those of other courts that have
rejected First Amendment challenges to the constitutionality
of exclusive representation provisions of State public sector
collective bargaining laws, including a previous challenge to G.
L. c. 150E. See D’Agostino v. Baker, 812 F.3d 240, 243 (1st Cir.),
cert. denied, 136 S. Ct. 2473 (2016) (Justice Souter, writing for
court and rejecting First Amendment challenge to G. L. c. 150E
on basis of Minnesota State Board for Community Colleges v.
Knight, 465 U.S. 271 [1984] [Knight II], reasoned, “Since nonunion professionals, college teachers, could claim no violation of
associational rights by an exclusive bargaining agent speaking
for their entire bargaining unit when dealing with the state
even outside collective bargaining, the same understanding of
the First Amendment should govern the position taken by the
[appellants] here, whose objection goes only to bargaining
representation”). See also Mentele v. Inslee, 916 F.3d 783, 789
(9th Cir. 2019) (holding, on basis of Knight II, that State’s
“authorization of an exclusive bargaining representative does
not infringe” on First Amendment rights of nonunion members);
Bierman v. Dayton, 900 F.3d 570, 574 (8th Cir. 2018) (home
care providers’ argument that their First Amendment rights
were violated by compelled association with their exclusive
representative “foreclosed by [Knight II]”); Hill v. Service
Employees Int’l Union, 850 F.3d 861, 864 (7th Cir.), cert. denied,
138 S. Ct. 446 (2017) (Knight II “forecloses . . . argument” of
home health care and child care providers that exclusive
representation creates “mandatory association” subject to
heightened First Amendment scrutiny); Jarvis v. Cuomo, 660
Fed. Appx. 72, 74 (2d Cir. 2016), cert. denied, 137 S. Ct. 1204
(2017) (child care providers’ argument that their First Amendment rights were violated by compelled association with their
exclusive representative “foreclosed” by Knight II); Thompson
vs. Marietta Education Ass’n, U.S. Dist. Ct., No. 2:18-cv-628
(S.D. Ohio Jan. 14, 2019) (Knight II “forecloses” high school
Spanish teacher’s First Amendment challenge to exclusive
representation provision of State statute); Reisman vs. Associated Faculties of the Univ. of Me., U.S. Dist. Ct., No. 1:18-cv00307-JDL (D. Me. Dec. 3, 2018) (“binding precedent” of Knight

61a
Janus and the other Supreme Court cases have
thus not questioned the constitutionality of exclusive
representation. The Court has, however, inextricably
coupled exclusive representation with a union’s duty
of fair representation. See, e.g., Janus, 138 S. Ct. at
2469 (duty of fair representation “is a necessary
concomitant of the authority that a union seeks when
it chooses to serve as the exclusive representative
of all the employees in a unit”). As the exclusive
representative of both members and nonmembers,
the union has a duty “fairly to represent all [employees in the bargaining unit], both in its collective
bargaining with [the employer] . . . and in its
enforcement of the resulting collective bargaining
agreement.” Vaca v. Sipes, 386 U.S. 171, 177 (1967).23
The focus of this duty in the negotiating context
has not been on input but on output, i.e., on
the results of the collective bargaining process.
Most significantly, the “union may not negotiate a
II “forecloses” faculty member’s First Amendment challenge to
exclusive representation provision of State collective bargaining
law); Uradnik vs. Inter Faculty Org., U.S. Dist. Ct., No. 18-1895
(PAM/LIB) (D. Minn. Sept. 27, 2018), aff’d, U.S. Ct. App., No.
18-3086 (8th Cir. Dec. 3, 2018) (Knight II “foreclose[s]” faculty
member’s First Amendment challenge to exclusive representation provision of State collective bargaining law).
23

The Supreme Court has stated that “constitutional questions [would] arise” regarding the legitimacy of exclusive
representation in the absence of the duty of fair representation.
Steele, 323 U.S. at 198. In Massachusetts, that duty is codified
by statute. See G. L. c. 150E, § 5 (exclusive representative
required to “represent[] the interests of all . . . employees without discrimination and without regard to employee organization
membership”). See also Leahy, 399 Mass. at 348 (“even if the
Massachusetts statute did not provide for the duty of fair
representation, the courts would infer it as a constitutional
requirement”).

62a
collective-bargaining agreement that discriminates
against nonmembers.” Janus, 138 S. Ct. at 2468. Cf.
Ford Motor Co. v. Huffman, 345 U.S. 330, 338 (1953)
(“mere existence of . . . differences” in way that
“negotiated agreement affect[s] individual employees
and classes of employees” will not violate duty of fair
representation so long as differences are reasonable
and negotiated in good faith). By contrast, the duty of
fair representation has not been found to apply to
how the union selects its negotiators and develops
its proposals. See National Labor Relations Bd. v.
Financial Inst. Employees of Am., Local 1182,
Chartered by United Food & Commercial Workers
Int’l Union, AFL-CIO, 475 U.S. 192, 205 (1986)
(Financial Inst. Employees), quoting Allis-Chalmers
Mfg. Co., 388 U.S. at 191 (explaining that union may
“select union officers and bargaining representatives”
without input of nonmembers because “[n]on-union
employees have no voice in the affairs of the union”);
Standard Fittings Co. v. National Labor Relations
Bd., 845 F.2d 1311, 1319 (5th Cir. 1988), citing
Financial Inst. Employees, supra (duty of fair representation does not give nonmembers right to “ratify
a collective-bargaining agreement or select union
officers and bargaining representatives”); Branch
6000, Nat’l Ass’n of Letter Carriers v. National Labor
Relations Bd., 595 F.2d 808, 811 (D.C. Cir. 1979)
(“non-union employees properly may be excluded”
from processes of formulating union’s negotiating
position without violating duty of fair representation).
See also Southern Worcester County Reg’l Vocational
Sch. Dist. v. Labor Relations Comm’n, 377 Mass.
897, 904 (1979) (“selection of the union negotiating
team [is] an internal union matter”); George v. Local
Union No. 639, Int’l Bhd. of Teamsters, Chauffeurs,
Warehousemen & Helpers of Am., AFL-CIO, 100 F.3d

63a
1008, 1010–1011, 1014 (D.C. Cir. 1996) (union did not
violate duty of fair representation by not permitting
member from serving on negotiating committee or
attending negotiating meetings); Sears v. Automobile
Carriers, Inc., 711 F.2d 1059 (6th Cir. 1983) (unpublished) (union did not commit breach of duty
of fair representation by removing member from
negotiating committee); Bass v. International Bhd. of
Boilermakers, 630 F.2d 1058, 1063 (5th Cir. 1980)
(“internal union decisions” are “not circumscribed by
the constraints of the [duty of fair representation]”);
Matter of Phalen v. Theatrical Protective Union No. 1,
Int’l Alliance of Theatrical & Stage Employees, A.F.L.C.I.O., 22 N.Y.2d 34, 44, cert. denied, 393 U.S. 1000
(1968) (“an action for breach of the duty of fair
representation by one who has been discriminated
against, although it may afford him an important
remedy, is no substitute for democratic participation
in the affairs of the union. Unless an individual is a
member of the union, he can have no voice in the
selection of its officers who are his representatives in
the collective bargaining process”). Cf. Anderson v.
Commonwealth Employment Relations Bd., 73 Mass.
App. Ct. 908, 909 n.5 (2009) (union rule that retired
members could not vote on collective bargaining
agreements did not “violate[] the duty of fair representation” because “the plaintiffs’ voting claim” was
“a purely internal matter”).
We now address the employees’ contention that
they are not challenging exclusive representation “in
the abstract,” but only insofar as the unions use
exclusive representation to deprive them of “a voice
and a vote in their workplace conditions” with respect
to bargaining representatives, contract proposals,
and bargaining strategy unless they join the unions

64a
and support their politics. We conclude that this
argument is likewise without merit.
As an initial matter, we address the employees’
claim that the unions are involved in “State action”
for purposes of a First Amendment challenge to their
internal rules restricting the participation of nonmembers in certain meetings or strategy sessions. As
then Circuit Judge Breyer, writing for the United
States Court of Appeals for the First Circuit,
explained, the “link between the union’s [governmentcreated] bargaining power and its membership requirements is too distant to impose constitutional
restrictions.” Hovan v. United Bhd. of Carpenters &
Joiners of Am., 704 F.2d 641, 645 (1st Cir. 1983). He
further concluded that, while exclusive representation
is a creature of statute, internal union rules not
dictated by statute do not constitute State action, and
holding otherwise “would radically change not only
the legal, but the practical, nature of the union enterprise.” Id. at 642-643. Accord United Steelworkers of
Am., AFL-CIO-CLC v. Sadlowski, 457 U.S. 102, 104,
121 n.16 (1982) (union’s adoption of “outsider rule”
prohibiting nonmembers from contributing to union
elections did not violate “nonmembers’ constitutional
rights of free speech and free association” because
“the union’s decision to adopt an outsider rule does
not involve state action”); Kidwell v. Transportation
Communications Int’l Union, 946 F.2d 283, 299
(4th Cir. 1991), cert. denied, 503 U.S. 1005 (1992) (for
purposes of First Amendment challenge, “the internal
membership and procedural decisions of a union . . . ,
although having an impact on those who may
participate in the union’s duties in carrying out its
role as collective bargaining representative, do[] not
constitute state action”); Turner v. Air Transport
Lodge 1984 of Int’l Ass’n of Machinists & Aerospace

65a
Workers, AFL-CIO, 590 F.2d 409, 413 n.1 (2d Cir.
1978), cert. denied, 442 U.S. 919 (1979) (per curiam)
(Mulligan, J., concurring) (“since union constitutions
and rules are formulated and enforced by the union, a
private entity, no federal constitutional right of free
speech is . . . involved”). While these cases involved
private sector unions, State action has been found
lacking in the public sector union context as well.
See, e.g., Hallinan v. Fraternal Order of Police of
Chicago Lodge No. 7, 570 F.3d 811, 817 (7th Cir.),
cert. denied, 558 U.S. 1049 (2009) (“Here, it was
the Union, rather than the employer, that barred
the plaintiffs from membership. And union actions
taken pursuant to the organization’s own internal
governing rules and regulations are not state
actions”); Harmon v. Matarazzo, 162 F.3d 1147 (2d
Cir.) (unpublished), cert. denied, 525 U.S. 1042 (1998)
(police officer’s Federal civil rights claim against
police union “not actionable” because union “is not
a state actor”); Messman v. Helmke, 133 F.3d 1042,
1044 (7th Cir. 1998) (“a union’s internal governing
rules usually are not subject to First Amendment
prohibitions”); Jackson v. Temple Univ. of the
Commonwealth Sys. of Higher Educ., 721 F.2d 931,
933 (3d Cir. 1983) (public employee’s Federal civil
rights claim against union not actionable where
plaintiff failed “to set forth any facts suggesting that
the state was responsible for the Union or that the
Union was acting under color of state law in deciding
not to bring [his] grievance to arbitration”). We conclude that here the link between exclusive representation and the unions’ membership requirements
are likewise too attenuated to constitute State action.
Moreover, even if we were to assume that the link
between statutorily required exclusive representation and union membership requirements might be

66a
sufficient in certain circumstances to satisfy the
State action requirement, we would still discern no
constitutional problems. Employees in the bargaining unit received a vote on whether to form their
unions; those opposed to having a union lost that
vote. The “majority-rule concept is . . . unquestionably at the center of our federal labor policy,” and
hence the “complete satisfaction of all who are
represented is hardly to be expected” (citations
omitted). Allis-Chalmers Mfg. Co., 388 U.S. at 180.
See Emporium Capwell Co., 420 U.S. at 62
(“majority rule” is “[c]entral to the policy of fostering
collective bargaining”). Indeed, as the Court in
Knight II, 465 U.S. at 290, observed, majority rule is
a fundamental aspect of American democratic government. Those who lose elections often do not have
representatives speaking in favor of their personal
policy preferences, at least until the next election.
Like these members of the electorate, the employees
have another chance to vote: they can vote to
decertify the union after a certain period of time. See
G. L. c. 150E, § 4. See also Watertown v. Watertown
Mun. Employees Ass’n, 63 Mass. App. Ct. 285, 291292 (2005) (describing “the employees’ right to select
new union representation” as “a collective bargaining
right that is beyond the arbitrator’s powers” to
penalize).
In the meantime, their inability to select bargaining representatives or participate in bargaining
sessions is a consequence of losing the election
regarding union representation and choosing not to
join the union after having lost. This is an intended
and expected feature of exclusive representation. See
Emporium Capwell Co., 420 U.S. at 62 (in creating
exclusive representation, Congress intended “regime
of majority rule” in which interests of some

67a
employees “might be subordinated to the interest of
the majority”). Hence, “exclusive bargaining representation by a democratically selected union does not,
without more, violate the right of free association on
the part of dissenting non-union members of the
bargaining unit.” D’Agostino v. Baker, 812 F.3d 240,
244 (1st Cir.), cert. denied, 136 S. Ct. 2473 (2016).
Moreover, as discussed, conflicting representatives
in collective bargaining is not practicable: to have
the employee representatives speak with one voice at
the bargaining table is critical to the efficient
resolution of labor-management disputes and protects
the bargaining unit employees from divide-andconquer tactics by employers. See note 21, supra
(citing cases). Thus, as the Court in Knight II, 465
U.S. at 291, concluded, “The state has a legitimate
interest in ensuring that its public employers hear
one, and only one, voice presenting the majority view
of its professional employees on employment-related
policy questions,” and exclusive representation is a
“rational means of serving that interest.”
Finally, the nonunion employees, even if they do
not have input into bargaining committees or bargaining proposals, remain protected by the duty of
fair representation. As mentioned, that duty ensures
that the unions may not negotiate a collective bargaining agreement that discriminates against nonmembers in the terms and conditions of employment.
See Janus, 138 S. Ct. at 2468; Emporium Capwell
Co., 420 U.S. at 64 (“by the very nature of the
exclusive bargaining representative’s status as representative of all unit employees, Congress implicitly
imposed upon it a duty fairly and in good faith to
represent the interests of minorities within the unit”).
Here, the employees have not plausibly alleged that

68a
the unions committed a breach of the duty of fair
representation for the reasons discussed supra. Thus,
we conclude, it is not a breach of the duty of fair
representation to prevent nonmembers from participating in the selection of bargaining committees
or the development of bargaining proposals. The
Supreme Court has deemed such exclusive representation to be constitutional.
4. Conclusion. For the foregoing reasons, we vacate
as moot the board’s decision with respect to the
agency fee provisions of G. L. c. 150E, § 12, and we
affirm the board’s decision with respect to the
exclusive representation provisions of G. L. c. 150E,
§§ 2, 4, 5, and 12.
So ordered.

69a
APPENDIX D
Part I

ADMINISTRATION OF THE
GOVERNMENT

Title XXI

LABOR AND INDUSTRIES

Chapter 150E LABOR RELATIONS: PUBLIC
EMPLOYEES
Section 4

EXCLUSIVE REPRESENTATIVE;
HEARING; ELECTION;
STIPULATION; CERTIFICATION;
REVIEW; VERIFICATION OF
EVIDENCE OF WRITTEN
MAJORITY AUTHORIZATION

Section 4. Public employers may recognize an employee organization designated by the majority of the
employees in an appropriate bargaining unit as the
exclusive representative of all the employees in such
unit for the purpose of collective bargaining. All
notices relative to a representation petition and all
elections shall be posted at the request of the commission ten days prior to a hearing in a conspicuous
place where the affected employees are employed.
The commission, upon receipt of an employer’s
petition alleging that one or more employee organizations claims to represent a substantial number of the
employees in a bargaining unit, or upon receipt of an
employee organization’s petition that a substantial
number of the employees in a bargaining unit wish to
be represented by the petitioner, or upon receipt of a
petition filed by or on behalf of a substantial number
of the employees in a unit alleging that the exclusive
representative therefor no longer represents a majority of the employees therein, shall investigate, and if
it has reasonable cause to believe that a substantial

70a
question of representation exists, shall provide for an
appropriate hearing upon due notice. If, after hearing, the commission finds that there is a controversy
concerning the representation of employees, it shall
direct an election by secret ballot or shall use any
other suitable method to determine whether, or by
which employee organization the employees in an
appropriate unit desire to be represented, and shall
certify any employee organization which received a
majority of the votes in such election as the exclusive
representative of such employees.
Except for good cause no election shall be directed
by the commission in an appropriate bargaining unit
within which a valid election has been held in the
preceding twelve months, or a valid collective bargaining agreement is in effect. The commission shall
by its rules provide an appropriate period prior to the
expiration of such agreements when certification or
decertification petitions may be filed.
Nothing in this section shall be construed to
prohibit a stipulation, in accordance with regulations
of the commission, by an employer and an employee
organization for the waiving of hearing and the
conducting of a consent election by the commission
for the purpose of determining a controversy concerning the representation of employees.
Any hearing under this section may be, when
so determined by the commission, conducted by a
member or agent of the commission. The decisions
and determinations of such member or agent shall be
final and binding unless, within ten days after notice
thereof, any party requests a review by the full
commission. If a review is requested, the member or
agent shall file with the commission and with the
parties a written statement of the case. In addition

71a
any party may, within ten days from the receipt of
such statement, file a supplementary statement with
the commission. A review by the commission shall be
made upon such statement of the case by the member
or agent and upon such supplementary statements
filed by the parties, if any, together with such other
evidence as the commission may require.
Notwithstanding any other provision of this section, the commission shall certify and the public
employer shall recognize as the exclusive representative for the purpose of collective bargaining of all the
employees in the bargaining unit an employee organization which has received a written majority authorization, but this shall apply only when no other
employee organization has been and currently is
lawfully recognized as the exclusive representative of
the employees in the appropriate bargaining unit.
Whenever an employee organization proffers evidence that it has received a written majority authorization, the employee organization and the public
employer shall agree upon a neutral to conduct a
confidential inspection of the evidence of a written
majority authorization. If within 10 days the employee organization and the public employer do not
agree upon a neutral, the commission shall act as the
neutral. The neutral shall verify the employee organization’s majority support within the appropriate bargaining unit and report the results of its inspection in
writing to the parties and, if the verification was
conducted by an agreed neutral, to the commission,
which shall in turn certify the results to the parties
in writing. The commission shall establish rules and
procedures for the prompt verification of evidence of a
written majority authorization, which rules shall
include safeguards to protect the privacy of individual employee choice, and which shall further provide

72a
that, absent exceptional cause, the verification procedure shall not last longer than 30 days after the
appointment of the neutral or after the assumption
by the commission of the duties of the neutral.

Part I

73a
ADMINISTRATION OF THE
GOVERNMENT

Title XXI

LABOR AND INDUSTRIES

Chapter 150E LABOR RELATIONS: PUBLIC
EMPLOYEES
Section 5

EXCLUSIVE REPRESENTATIVE;
POWERS AND DUTIES;
GRIEVANCES

Section 5. The exclusive representative shall have
the right to act for and negotiate agreements covering
all employees in the unit and shall be responsible
for representing the interests of all such employees
without discrimination and without regard to employee organization membership.
An employee may present a grievance to his
employer and have such grievance heard without
intervention by the exclusive representative of the
employee organization representing said employee,
provided that the exclusive representative is afforded
the opportunity to be present at such conferences and
that any adjustment made shall not be inconsistent
with the terms of an agreement then in effect between the employer and the exclusive representative.

Part I

74a
ADMINISTRATION OF THE
GOVERNMENT

Title XXI

LABOR AND INDUSTRIES

Chapter150E LABOR RELATIONS: PUBLIC
EMPLOYEES
Section 6

NEGOTIATIONS; MEETINGS

Section 6. The employer and the exclusive representative shall meet at reasonable times, including
meetings in advance of the employer’s budget-making
process and shall negotiate in good faith with respect
to wages, hours, standards or productivity and performance, and any other terms and conditions of
employment, including without limitation, in the case
of teaching personnel employed by a school committee, class size and workload, but such obligation shall
not compel either party to agree to a proposal or
make a concession; provided, however, that in no
event shall the right of any employee to run as a
candidate for or to hold elective office be deemed to be
within the scope of negotiation.

Part I

75a
ADMINISTRATION OF THE
GOVERNMENT

Title XXI

LABOR AND INDUSTRIES

Chapter150E LABOR RELATIONS: PUBLIC
EMPLOYEES
Section 12

SERVICE FEE; IMPOSITION;
AMOUNT; DISCRIMINATION

Section 12. The commonwealth or any other employer shall require as a condition of employment
during the life of a collective bargaining agreement so
providing, the payment on or after the thirtieth day
following the beginning of such employment or the
effective date of such agreement, whichever is later,
of a service fee to the employee organization which in
accordance with the provisions of this chapter, is duly
recognized by the employer or designated by the
commission as the exclusive bargaining agent for the
unit in which such employee is employed; provided,
however, that such service fee shall not be imposed
unless the collective bargaining agreement requiring
its payment as a condition of employment has been
formally executed, pursuant to a vote of a majority of
all employees in such bargaining unit present and
voting.
Prior to the vote, the exclusive bargaining agent
shall make reasonable efforts to notify all employees
in the unit of the time and place of the meeting at
which the ratification vote is to be held, or any other
method which will be used to conduct the ratification
vote. The amount of such service fee shall be equal to
the amount required to become a member and remain
a member in good standing of the exclusive bargaining agent and its affiliates to or from which
membership dues or per capita fees are paid or

76a
received. No employee organization shall receive a
service fee as provided herein unless it has established a procedure by which any employee so
demanding may obtain a rebate of that part of said
employee’s service payment, if any, that represents a
pro rata share of expenditures by the organization or
its affiliates for:
(1) contributions to political candidates or political committees formed for a candidate or
political party;
(2) publicizing of an organizational preference for
a candidate for political office;
(3) efforts to enact, defeat, repeal or amend
legislation unrelated to the wages, hours,
standards of productivity and performance,
and other terms and conditions of employment, and the welfare or the working environment of employees represented by the
exclusive bargaining agent or its affiliates;
(4) contributions to charitable, religious or idealogical causes not germane to its duties as the
exclusive bargaining agent;
(5) benefits which are not germane to the governance or duties as bargaining agent, of the
exclusive bargaining agent or its affiliates
and available only to the members of the
employee organization.
It shall be a prohibited labor practice for an
employee organization or its affiliates to discriminate
against an employee on the basis of the employee’s
membership, nonmembership or agency fee status in
the employee organization or its affiliates.

77a
APPENDIX E
MASSACHUSETTS TEACHERS ASSOCIATION
DIVISION OF LEGAL SERVICES
20 ASHBURTON PLACE
BOSTON, MASSACHUSETTS 02108
617.742.7950
1.800.392.6175
FAX: 617.248.6921
GENERAL COUNSEL
SUSAN LEE WEISSINGER
STAFF COUNSEL
SANDRA C. QUINN
IRA C. FADER
MATTHEW D. JONES
RICHARD A. MULLANE
WILL EVANS
LAURIE R. HOULE
QUESIYAH S. ALI
RYAN R. DUNN
January 10, 2014
MEMORANDUM
TO:

2013-2014 Nonmembers

FROM:

Susan Lee Weissinger,
MTA General Counsel

SUBJECT: SERVICES NOT PROVIDED TO
AGENCY FEE PAYERS
This document contains an explanation of the MTA
and NEA portion of the agency fee that the local
association which represents you in collective bargaining is charging nonmembers for 2013-2014. The
type of services and activities for which a union can
charge nonmembers is governed by the Massachu-

78a
setts public sector collective bargaining law, GI. c.
150E, regulations and decisions of the Massachusetts
Department of Labor Relations interpreting that law,
and court decisions interpreting the constitutional
rights of nonmembers asked to pay an agency fee.
WARNING: IF YOU ELECT TO PAY AN
AGENCY FEE RATHER THAN
BECOME A MEMBER OF YOUR
LOCAL ASSOCIATION, MTA AND
NEA, YOU WILL NOT BE ENTITLED TO THE FOLLOWING SERVICES AND BENEFITS WHICH
ARE AVAILABLE ONLY TO MTA/
NEA MEMBERS AND FOR WHICH
AGENCY FEE PAYERS ARE NOT
CHARGED.
As MTA’s General Counsel, I urge you to consider
joining your local/MTA and NEA. If you elect not to
do so, be advised that there are numerous valuable
rights, protections and benefits that you are not
entitled to receive as a nonmember.
1. Ability to participate in affiliate decisionmaking. Under the law, nonmembers are entitled to
attend ratification meetings and vote on collective
bargaining agreements that contain an agency service fee provisions, but they are not entitled to attend
any other association meetings or be involved in
any other union activities (vote on election of officers,
bylaw modifications, contract proposals or bargaining
strategy). Therefore, apart from the ratification of the
contract, nonmembers do not participate in the collective activities and decision-making of the association that influences the terms and conditions of
employment.

79a
2. Legal services are provided at no cost to
members in need of advice and legal representation
in the following areas, but as an agency fee payer,
you would not be entitled to free legal representation
for:


Defending against your dismissal or suspension
under the Education Reform Act of 1993



Defending against child abuse charges filed
with the Department of Children and Families



Assisting you in bringing criminal charges if
you are assaulted at work



Any employment discrimination claim (age, sex,
race, religion, sexual preference, national origin,
handicap, etc.)



Your right to unemployment benefits

• Retirement benefits, including challenges to
decisions of retirement boards regarding your
creditable service, and representing you in
applying for an ordinary or accidental disability
retirement allowance


License suspension or revocation invoked by the
Department of Secondary and Elementary
Education



Violation of your civil rights as an employee



Workers’ compensation



Open meeting law violations adversely affecting
you



Violations of your right to privacy

3. MTA/NEA members are also covered by an
insurance policy which provides $1,000,000 in coverage to protect you in the event you are sued in

80a
connection with your employment under terms
specified in the Educators Employment Liability
Policy. Agency fee payers are excluded from coverage
under this policy.
4. MTA/NEA members charged with crimes alleged to have occurred in the course of their
employment, are entitled to assistance from MTA in
defraying the legal costs they incur in defending
against those charges. Members acquitted of criminal
charges are reimbursed for up to $35,000 in criminal
defense fees. Agency fee payers receive no MTA
assistance when facing criminal charges. You would
need to retain private counsel.
5. MTA provides members access to reduced-fee
legal services for non-employment legal problems.
Under its Attorney Referral Program, MTA provides
members with up to three free half-hour consultations for general legal advice and up to 30% fee
reduction in legal matters including real estate,
domestic relations, wills and estates, consumer protection and motor vehicle violations. Agency fee
payers may not participate in the Attorney Referral
Program.
6. MTA members have the benefit of discount
group purchasing of auto and homeowners insurance,
life and dental insurance, health and wellness discounts, travel, mortgage refinancing, financial programs, wireless services, identity theft protection,
disability, tax-sheltered annuities and many other
services through MTA Benefits, Here’s how much one
MTA member might save.
























81a
Long-Term Care Insurance
$ 800
Disability Insurance*
$ 1,887
Dental Insurance
$ 152
Free prescription drug card
$ 361
(Savings on prescriptions not covered by
insurance.)
Home Heating Oil
$ 300
Propane Program
$ 400
Berkshire Bank Checking Account
$ 765
(New bank customers who open an Elite
Relationship Checking Account)
Purchasing Program
$
90
(Select from more than 2,500 brand-name
items to purchase interest-free and pay
over a 12-month period.)
MTA Discount Directory program savings $ 600
(Reduced admission to more than 1,000
museums, theaters, concerts, retail stores,
parking, ski areas and more.)
Discounts through Access
$ 1,300
(Nationwide savings at more than 300,000
locations.)
Auto Insurance
$ 125
Car Rental (up to 20% discount
$
50
(Up to 20% discount on a one week rental.)
Hotel Discounts
$ 150
MTA Travel Programs
$ 400
(TNT Travel, Orlando Vacations and
CruisesOnly)
Home Mortgage Program
$ 1,000
(2013 average savings on legal fees.**)
Wireless Services
$
75
TOTAL SAMPLE SAVINGS
$ 8,455

82a
The MTA agency fee amount for 2013-2014 is $325.84
and the NEA agency fee amount is $64.76. The 20132014 dues of MTA and NEA are $486.00 and $182.00.
I hope you will give serious consideration to this
information as you make your decision whether to
join your local/MTA/NEA or pay an agency fee.
* Long-term disability sample savings for a 45 year
old member with a salary of $60,000
** Based on a purchase of $285,000

